OFFICE OF INSPECTOR GENERAL   U.S. Department of Transportation




           Semiannual
           Report to the
            Congress
        April 1,2001 - September 30,2001
            This semiannual report and other OIG materials are available
                  on the World Wide Web at http://www.oig.dot.gov.

                          To report fraud, waste, or abuse, call
                           OIG’s Hotline at 1-800-424-9071.




Cover: Amtrak photo courtesy of Daniel Duncan.
                                                                                                                                Contents


FROM THE INSPECTOR GENERAL                               ............................................2

ACRONYMS IN THIS REPORT                           ...............................................4

O R G A N I Z AT I O N / M A N A G E M E N T             ............................................5

FOCUS:     Transportation Security. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


WORK PLANNED AND IN PROGRESS                                    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

AU D I T S A N D I N V E S T I G AT I O N S            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

C H A RT S A N D TA B L E S

                 Summary of Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

                 OIG Fiscal Year 2002 Budget . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

                 Completed Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

                 Management Decisions Regarding OIG Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

                 OIG Reports with Recommendations That Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50

                 OIG Reports with Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . 50

                 OIG Reports Recommending Changes for Safety, Economy, or Efficiency . . . . . . . . . . . . . . . . . . . 51

                 Staus of Unresolved Recommendations Over 6 Months Old. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

                 OIG Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52

                 OIG Congressional Testimonies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56

                 Application of Audit Resources by Operating Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57

                 Profile of Pending Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59

                 Application of Investigative Resources by Operating Administration . . . . . . . . . . . . . . . . . . . . . . . 59

                 Investigative Resource Allocation by Priority Area . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59

                 Administrative Actions Taken. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60

                 Judicial Actions Taken . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60


PCIE AWARDS             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61
C O N TA C T S     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 64
       From          the         Inspector                  General




The tragedy and horror of September 11 touched the lives of all Americans and dramatically empha-
sized the importance of transportation security. We have entered a new era in which efforts to enhance
mobility, increase system capacity, and relieve congestion across and within all modes of transportation
must be viewed in a context of considerably tighter security.


Both the Congress and the Department drew upon more than a decade’s worth of Office of Inspector
General audits and investigations in fashioning the requirements of the new Aviation and
Transportation Security Act. Since September 11, we provided five Congressional testimonies on the
subject of security. Our work covered the inadequate use of explosives detection equipment to screen
checked luggage; security screener qualifications and performance; and the need to strengthen controls
over issuance of airport identification badges, perform criminal background and fingerprint checks of air-
port and airline workers, tighten access to parked aircraft, baggage areas, and runways, and improve
cargo security.


Also, per President Bush’s         S u m m a r y                 o f     Pe r f o r m a n c e
instructions, we are conduct-
                                   APRIL 1, 2001 – SEPTEMBER 30, 2001
ing undercover audits of
                                   Reports issued                                                54
security performance at
                                   Recommendations issued                                      156
airports nationwide and
reporting the results of these     Congressional testimonies                                     13

to Secretary Mineta, Under         Total financial recommendations               $654,893,000

Secretary McGaw, and FAA           — That funds be better used                   $647,000,000
Administrator Garvey. In           — That questioned costs                          $7,893,000
support of the Secretary’s         Referrals for prosecution                                   135
"Zero-Tolerance" Policy for        Cases accepted for prosecution                              143
security lapses, we are moni-      Indictments                                                 122
toring checkpoint security at
                                   Fines, restitutions, and recoveries            $15,158,526
airports, including effecting
                                   Convictions                                                 101
on-the-spot corrections with
                                   Debarments and suspensions                                    13
FAA. Over 100 OIG auditors
                                   Actions affecting DOT employees                                 6
and special agents—more




2
than 20 percent of our workforce—are carrying out these duties. The immediate challenge is imple-
menting the new Transportation Security Administration, fulfilling the requirements of the Act, and
establishing a world-class security program—one that justifies a high level of confidence in the secu-
rity of our transportation system.


While the emphasis in this foreword is on security, there are other pressing transportation matters as
well: (l) stabilization of the airline industry and ensuring competitive service globally and in small- and
medium-sized communities; (2) motor carrier and commercial driver safety, domestically and at the
southern border; (3) the future of Amtrak, and the structure and financial viability of intercity passen-
ger rail; (4) implementation of the TREAD Act to provide early warning of vehicle safety defects; (5)
Coast Guard requirements, including port security, implementation of a stronger search and rescue pro-
gram, and the multibillion-dollar Deepwater acquisition for afloat and airborne assets; and (6) oversight
of large transportation projects, such as Boston’s Central Artery, the Wilson Bridge outside Washington,
D.C., and the Tren Urbano rail transit project in Puerto Rico, and stewardship of funds to make sure
they are spent for the purposes intended.


We continue to reassess and refine our work plans to address the implications of September 11, but
remain committed to maintaining rigorous oversight of the risk areas described. Both Secretary Mineta
and Deputy Secretary Jackson have been most active in drawing upon Office of Inspector General audit
and investigative work and in soliciting our recommendations. We appreciate this level of confidence,
and the constructive relationship it implies, as well as the support of the Congress in our work. The staff
of the Office of Inspector General want to do everything they can to provide high-quality oversight and
contribute to a safer, more secure, and more efficient transportation system.




                                                                                                          3
Acronyms in This Report




    AIG         Assistant Inspector General
    CDL         Commercial Drivers License
    DBE         Disadvantaged Business Enterprise
    DOT         Department of Transportation
    EPA         Environmental Protection Agency
    FAA         Federal Aviation Administration
    FBI         Federal Bureau of Investigation
    FHWA        Federal Highway Administration
    FMCSA       Federal Motor Carrier Safety Administration
    FRA         Federal Railroad Administration
    FTA         Federal Transit Administration
    GSA         General Services Administration
    IG          Inspector General
    IRS         Internal Revenue Service
    MARAD       Maritime Administration
    NAFTA       North American Free Trade Agreement
    NASA        National Aeronautics and Space Administration
    NHTSA       National Highway Traffic Safety Administration
    OIG         Office of Inspector General
    OST         Office of the Secretary of Transportation
    RSPA        Research and Special Programs Administration
    STARS       Standard Terminal Automation Replacement System
    TASC        Transportation Administrative Service Center
    TREAD Act   Transportation Recall Enhancement, Accountability, and Documentation Act of 2000
    USCG        U.S. Coast Guard




4
                                                                         Organization/Management




     T H E O F F I C E O F I N S P E C TO R G E N E R A L F O R T H E D E PA RT M E N T O F T R A N S P O RTAT I O N
     was created by Congress through the Inspector General Act of 1978 (Public Law 95-452). The Act
     sets several goals for the Office of Inspector General (OIG):
     ■   To conduct or supervise objective audits and investigations of the Department of Transportation’s
         (DOT) programs and operations;
                                                                                OIG Fiscal Year 2002 Budget
     ■   To promote economy, effectiveness, and efficiency                      Total: $59,237,000
         within DOT;                                                                $3,200,000        $2,735,000   $1,800,000 TASC*
                                                                                 General Services       Travel
     ■   To prevent and detect fraud, waste, and abuse in                       Administration Rent

         the Department’s programs;                                                     $2,810,000
                                                                                          Other
     ■   To review existing and proposed laws or regulations
         affecting the Department and make recommenda-
         tions about them; and                                                       $10,299,000                                              $34,893,000
                                                                                      Benefits
                                                                                                                                              Personnel
     ■   To keep the Secretary of Transportation and                                                                                          Compensation

         Congress fully informed about problems in                                          $3,500,000
                                                                                            Advisory &
                                                                                       Assistance Contracts
         Departmental programs and operations.
                                                                                * The Transportation Administrative Service Center provides reimbursable
                                                                                  services to DOT Operating Administrations.



         OIG is divided into two major units and six support
        units. The major units are the Office of Assistant Inspector General for Auditing and the Office of Assistant
                                                                                                            Inspector General for Inves-
                             Inspector General
                                                                                                            tigations; each has headquarters
                                                                                                            staff and field staff. The support
                            Deputy Inspector General
                                                                                                            units are the Office of Legal
                                                                                                            Counsel; the Office of Legis-
                                                                               Senior Counsel
                                                                       Senior Counsel for Legislative       lative and External Affairs; the
                                                                             & External Affairs
     Assistant IG For             Assistant IG For                  Technical Resource Management           Office of Technical Resource
       Investigations                   Auditing                             Human Resources
                                                                         Financial/ Administrative/
                                                                         Information Management             Management; the Office of
                                                                Quality Assurance Reviews/ Internal Affairs
                                                                                                            Human Resources; the Office of
                                                                                                            Financial, Administrative, and
                                                    Deputy        Deputy AIG For
                                  Deputy           AIG For            Financial,
                                                                                            Deputy          Information Management; and
   Deputy          Deputy                                                                   AIG For
                                  AIG For       Competition,        Information
   AIG For         AIG For
                                Maritime &       Economic,        Technology and
                                                                                            National        the Office of Quality Assurance
Investigations     Aviation                                                             Transportation
                                              Rail, and Special
                              Highway Safety
                                                  Programs
                                                                 Departmentwide
                                                                      Programs
                                                                                        Infrastructure      Reviews/Internal Affairs. ■



                                                                                                                                                             5
                                                                                                        FOCUS




Tr a n s p o r t a t i o n S e c u r i t y

IN THE MONTHS LEADING UP TO SEPTEMBER 11,           a significant amount of OIG’s resources were devot-
ed to aviation capacity, highway safety, and financial stewardship issues, in particular the issues of flight
delays and cancellations and efforts to build new runways. As Secretary Mineta stated, while capacity,
demand, and stewardship of Federal funds remain critical issues, we have entered a new era in which
efforts to enhance mobility must take security measures into account.


We have seen in recent months that the nation’s increased commitment to security has taken shape
through many endeavors, among them creation of the Transportation Security Administration. In the
coming months, we will be working constructively with the new agency and closely monitoring how it
carries out the sweeping responsibilities and numerous mandates provided by the Aviation and
Transportation Security Act.


Transportation security has long been one of our top
priorities. Many of the security issues drawing attention
post-9/11 have been the subject of OIG reviews. These
include access to secure areas of airports; cargo security;
use of explosives detection equipment; baggage screen-
ing; training to improve the performance of security
screeners; and background investigations of airport and
airline employees.
                                                              The Coast Guard patrolling the Potomac River outside
                                                              Washington, D.C.



OUR CURRENT SECURITY-RELATED EFFORTS INCLUDE:


■ At the instruction of the President on November 9, conducting undercover audits of security per-
 formance at airports nationwide to ensure strict compliance with Federal Aviation Administration
 (FAA) requirements. As part of the President’s directive, we are monitoring the use of security check-
 point X-ray machines that screen carry-on baggage, as well as explosives detection devices used to
 screen checked baggage.




                                                                                                                     7
■ Supporting      the Secretary’s "Zero-Tolerance" Policy for aviation security lapses by monitoring checkpoint
    security at airports around the nation and reporting violations of security directives to FAA.

■ Testifying    before Congressional committees on our recommendations for deployment and maximum
    use of explosives detection equipment for screening checked baggage. In the five testimonies since
    September 11, we reported on our post-9/11 review of checked baggage screening, where we found
    air carriers were not maximizing the use of explosives detection machines and that 73 percent of the
    machines were not in continuous use as required by FAA.

■ Investigating    and assisting in the prosecution of numerous cases where airport employees misrepre-
    sented their criminal histories or immigration status in order to obtain jobs that gave them access to
    secure areas of the airport, including gates and ramps. This includes our recent follow-up investiga-
    tion of Argenbright Holdings, Inc., after its conviction for hiring felons as screeners and falsifying
    screeners’ training.

■ Recommending        that air cargo controls be tightened, particularly the process for certifying freight for-
    warders and assessing their compliance with security requirements. In response, FAA no longer allows
    air carriers to accept cargo from unknown shippers and has stiffened the requirements for becoming
    a known shipper.

■ Briefing   law makers and Departmental officials on our recommendation that the Department upgrade
    access controls to reduce the continued vulnerability of its computer networks to unauthorized intru-
    sions, especially those governing critical functions such as air traffic control, maritime search and res-
    cue, and financial systems supporting the accounting for and distribution of billions of dollars in
    Federal funds. The Department is working to correct these problems.

■ Monitoring    Federal oversight of the Federal Commercial Drivers License (CDL) program to minimize
    fraud and abuse and prevent unqualified individuals from driving big rigs on our country’s highways.



COMPUTER SECURITY


The events of September 11 brought increased interest in protecting the air traffic control system and
other transportation communications networks from disruption. We highlighted the critical need to
address the vulnerability of the Department’s computer systems to outside hackers in our report released
on September 7, 2001. Our evaluation of the Department’s information security controls and proce-
dures was part of the Department’s first-ever report under the Government Information Security
Reform Act of 2000. The audit also reported that:


8
■ DOT   systems are vulnerable to insiders. More than 100,000 people inside DOT are authorized to
 access the computer systems on its private networks, but only about 10 percent of DOT mission-critical
 systems have received security certification reviews, a critical control which requires periodic manage-
 ment reviews to certify that major systems are adequately secured.

Our review cited issues we had raised in earlier audits and investigations, including the:

■ May 23 release of a report identifying 86 of 142 Department web servers as being vulnerable to hack-
 ers. DOT subsequently took corrective actions.

■ August  21 audit raising concerns about FAA’s plans to replace its telecommunications systems with a
 digital network system that would put air traffic control systems, now operating through dedicated
 networks, on the same network with administrative systems having direct connections to the Internet.
 FAA agreed to modify its plans by keeping administrative systems outside the scope of the replace-
 ment network.

■ Department’s unfinished background checks on 18,000 contractor personnel working on DOT sys-
 tems. We urged completion of the checks in July 2000, and so
 far, FAA has completed background checks on 85 percent of its
 contractor personnel. Other modal administrations reported
 completion of background checks on only 25 percent of their
 contractor personnel.

In earlier Congressional testimony, we reported that about 900
DOT computers were susceptible to attack by insiders such as
employees or contractors. This vulnerability was well demonstrat-
ed by the case of an FAA software developer who stole an air traf-
fic control system source code the agency had spent $1 million to
develop. The employee led a team that worked 5 years to devel-
op a program which relayed critical flight data. He resigned his
post in 1998, telling his supervisor that he had accidentally
destroyed the original source code. IG investigators discovered a
floppy disk containing an encrypted version of the code at his
home. He was sentenced in June to a year in prison.


The vulnerability of the Department’s information systems was further illustrated in 2001 when a
Department computer system was breached by a 15-year-old Connecticut boy who gained unautho-



                                                                                                        9
 rized access into a system at the Department’s Volpe Center in Cambridge, MA, in order to hack into
 the Air Mobility Command computer system at Scott Air Force Base.



 COMMERCIAL DRIVERS LICENSES
 Public concern about transportation security turned toward the nation’s highways in October when it
 appeared that a potential terrorist suspect had illegally obtained a CDL allowing him to haul hazardous mate-
 rials. While the FBI quickly cleared the trucker of the allegations, the case illustrated the ease with which per-
 sons can obtain a license to operate a truck or bus in interstate commerce.


 The case of a former Pennsylvania Transportation Department CDL examiner charged in November with
 providing fraudulent CDLs is the latest example of potential problems with state oversight for licensing com-
 mercial truck drivers.


 Federal and state investigators have uncovered cases of CDL fraud in at least 15 states. OIG has been involved
 in cases in Illinois, Florida, Ohio, and Mississippi where applicants bribed examiners to falsify test results. The
 biggest case so far is "Operation Safe Road," the ongoing investigation of bribes-for-licenses in the Illinois
 Secretary of State’s office, which has resulted in 41 convictions.


 Our current work with the Federal Motor Carrier Safety Administration (FMCSA) indicates the agency has
 improved the quality of its oversight reviews since it was established in January 2000. Between September
 and November 2001, FMCSA issued 10 reports based on reviews in 2000 and early 2001. The reports show
 the agency has enhanced the frequency and depth of its oversight reviews by, for example, examining state
 procedures to control potential abuse and visiting state testing facilities. We will continue our close oversight
 of the agency and make additional recommendations to help it strengthen its programs.


 The events of 9/11 have caused us to think of our transportation system and its operations in a new light—
 that is, the safety and security of all who drive on our nation’s highways, navigate its waterways, fly in air-
 planes, or ride the rails. We will continue to vigorously monitor all aspects of transportation security to help
 protect the safety of those who depend on it.




10
                         Work         Planned              and       in      Progress                   ✑



PRESIDENTIAL DIRECTIVE

IN A NATIONALLY TELEVISED PRESS CONFERENCE            on November 9, 2001, President Bush directed
OIG to conduct undercover audits of security performance at airports nationwide to detect lapses in
security systems and ensure strict compliance with FAA security standards. We are conducting tests at
approximately 25 airports and will be providing our results to the appropriate officials.



DOT's TOP MANAGEMENT CHALLENGES

EVEN BEYOND THE PRESIDENTIAL DIRECTIVE             discussed above, the events of September 11, resulted
in significant changes to our planned and ongoing work. For instance, we decided to take a fresh
approach to our annual list of DOT’s top management challenges. As a result, the 2002 list will be very
different from previous lists, reflecting the changed priorities in the Department and the OIG. While
the final items are under development as of this printing, we know the list will cover:


RESPONDING TO 9/11


■ strengthening transportation security and establishing the
 Transportation Security Administration;

■ implementing   the Air Transportation Safety and System
 Stabilization Act and addressing changes in air services;

■ following through on aviation safety, capacity, and moderniza-
 tion efforts in a post-9/11 world; and

■ balancing the Coast Guard’s missions and budget priorities in
                                                                   A Coast Guard deck officer stands watch in
 light of 9/11.                                                    Hampton Roads, VA.




                                                                                                                11
 TRANSPORTATION SAFETY


 ■ helpingto ensure motor carrier safety at the U.S.-Mexico border and improving oversight of state
     Commercial Drivers License programs; and

 ■ implementing       the Transportation Recall Enhancement, Accountability, and Documentation
     (TREAD) Act provisions to improve detection of motor vehicle safety defects and identifying strate-
     gies to achieve goals for increasing seat belt usage.

 STEWARDSHIP OF FEDERAL RESOURCES


 ■ deciding    the future structure and funding of intercity passenger rail (Amtrak);

 ■ improving    the Maritime Administration’s (MARAD) Title XI loan guarantee and ship disposal programs;

 ■ assisting  with reauthorization of the Transportation Equity Act for the 21st Century and strengthen-
     ing oversight of Federal highway and transit funds; and

 ■ addressing   Department-wide management issues including Presidential Management Initiatives, com-
     puter security, contract oversight, new financial systems, the Government Performance and Results
     Act, human resources issues, and the Transportation Administrative Service Center.




 CONGRESSIONAL INITIATIVES

 OIG RECEIVES NUMEROUS REQUESTS            each year from members and committees of Congress to con-
 duct audits, reviews, and investigations and provide testimony on Departmental programs. OIG’s work
 plan currently includes the following congressionally requested projects:


 ■ Review    the Office of the Secretary’s procedures to implement payment provisions of the Air
     Transportation and System Stabilization Act, including analysis of up to $10 billion in applications
     from air carriers for Federal loan guarantees, payment of $5 billion in compensation to passenger
     and cargo air carriers for direct and incremental losses resulting from the terrorist attacks on
     September 11, and the supportability and reasonableness of air carrier compensation payment
     claims.

 ■ Review    and provide an interim report on the analysis of proposed cockpit door-securing technolo-
     gies and related security measures.


12
■ Assessthe Department’s efforts to ensure that Mexican trucks
 will operate safely within the United States.

■ Determine   if the Information Technology Omnibus
 Procurement Program is so broad and flexible that it could be
 used by DOT agencies to evade departmental oversight or
 Congressional scrutiny, if DOT agencies use this type of con-
 tract when they have contract professionals in-house who per-
 form similar work, and if this procurement fits the main mission of TASC.

■ Certify
        that increased funding to enhance staffing, training, and protective gear at Coast Guard search
 and rescue stations, surf stations, and command centers is used solely for the purposes intended.

■ Review selected transportation mega-projects and aggressively investigate and refer for prosecution
 cases of fraud involving Federal funds.




OIG WORK IN PROGRESS

Other OIG work in progress in each of our audit offices includes:


AVIATION


■ Assess FAA’s Weather and Radar Processor programs with respect to cost, schedule, and perform-
 ance. Examine how FAA will use the systems to lessen the effects of bad weather and improve air
 traffic flow.

■ Assess FAA’s progress in implementing the Air Transportation Oversight System and identify barri-
 ers to implementation.

■ Evaluate
         the development and deployment of the Local Area Augmentation System, including pro-
 gram cost and schedule.

■ EvaluateFAA’s Free Flight Phase 1 (FFP1) initiative with emphasis on cost, schedule, human fac-
 tors, and software development. In addition, evaluate plans for expanding the FFP1 effort (and
 other technologies planned for implementation) during the 2003 to 2005 time frame, and the inter-
 face between Free Flight technologies and other modernization efforts.



                                                                                                     13
 ■ Determine    the effectiveness of FAA’s oversight of air carriers’ Continuing Analysis and Surveillance
     Systems use to monitor the effectiveness of aircraft maintenance and inspection programs.

 FINANCIAL, INFORMATION TECHNOLOGY, &
 DEPARTMENT-WIDE PROGRAMS


 ■ Determine     whether FY 2001 financial statements prepared by the Department and its Operating
     Administrations conform with Generally Accepted Accounting Principles, have adequate internal
     controls over financial reporting, and comply with laws and regulations that could have a direct and
     material effect on the financial statements.

 ■ Determine     if FAA is properly administering payment and closeout of cost-reimbursable contracts.

 ■ Determine    whether FAA computer security over Air Traffic Control En-Route Center operations is
     adequate to ensure the integrity, confidentiality, and availability of critical air traffic control systems.

 NATIONAL TRANSPORTATION INFRASTRUCTURE


 ■ Determine     whether Central Artery’s October 1, 2001, Finance
     Plan complied with Federal Highway Administration (FHWA)
     guidance and whether estimated costs are supported by appro-
     priate and sufficient cost data and funding sources. Determine
     whether the planned completion schedule is supported by
                                                                           Tunnel construction on the Central Artery/Tunnel
     appropriate information.                                              Project in Boston.


 ■ Assess   FHWA’s follow-up to generate a credit on the Central Artery/Tunnel Project for insurance
     premium overpayments and related trust fund income, and to develop a national policy for protect-
     ing the highway program from similar abuses of grant funds.

 ■ As  a follow-up to our audit reporting the status of issues related to the Woodrow Wilson Bridge
     Corridor Reconstruction Project, determine whether FHWA, the State of Maryland, and the
                     Commonwealth of Virginia implemented agreed upon actions in the Final Finance
                     Plan for the project.

                       ■ Determine   whether the Hiawatha Corridor Light Rail Transit Project
                         (Minneapolis, MN) has a reliable project budget, sufficient construction and
                         operations funding, and a viable completion schedule in order to protect the
                         Federal investment from waste, fraud, and abuse.



14
■ Evaluatethe cost estimate increases of the Springfield, VA Interchange Construction Project, as well
 as the adequacy of funding and scheduling.

MARITIME & HIGHWAY SAFETY PROGRAMS


■ Determine whether the project cost and schedule estimates for the Coast Guard’s National Distress
 and Response System Modernization Project are reasonable, supported, and justify the development
 of a new system.

■ Assess
       the Coast Guard’s management, direction, and funding of its research and development pro-
 gram, and its progress toward meeting the Department’s performance goals and implementing previ-
 ous OIG and General Accounting Office recommendations in this area.

■ Evaluate the criteria and data used by the National Highway Traffic Safety Administration (NHTSA)
 to identify motor vehicle safety problems as part of action required by the TREAD Act. Assess the
 efficiency of NHTSA's procedures and processes for investigating problems and issuing consumer
 alerts or recalls and evaluate NHTSA's efforts to update its safety standards, specifically automobile
 tire standards.

■ Determine   whether oversight by the Federal Motor Carrier Safety Administration is adequate to iden-
 tify state and third-party weaknesses in testing commercial drivers and issuing Commercial Drivers
 Licenses, and whether it can ensure correction of significant disclosed weaknesses.

■ Assessthe effect of the October 19, 2001, bankruptcy filing of American Classic Voyages Co. on its
 Title XI loan guarantees, and perform a comprehensive review of the Title XI program to determine
 if procedures for submitting, reviewing, approving, and monitoring selected loan guarantees comply
 with laws and regulations to protect the interests of the United States.

COMPETITION, ECONOMIC, RAIL, & SPECIAL PROGRAMS


 ■ Assess
        Amtrak’s current financial status, its 2001 Strategic Business Plan, and the current capital
 investment program, funding sources, and capital needs.

■ Assessthe accuracy of information in the Federal Railroad Administration’s (FRA) safety inspection
 reports and database, determine whether the database information is used appropriately to calculate
 defect ratios, and evaluate the usefulness of the database in enforcing Federal safety standards.

■ Continue   to monitor aviation delays and service to small communities.



                                                                                                     15
                                        Audits             &     Investigations
                                   April 1, 2001 - September 30, 2001




T H E O F F I C E O F I N S P E C T O R G E N E R A L I N C L U D E S A S TA F F O F A U D I T O R S A N D
A N A LY S T S  who review DOT programs and make recommendations to enhance their effectiveness and
improve their efficiency. Our aim is to ensure the Department spends taxpayer funds in a prudent and
proper manner. Some audits focus on financial issues; others provide oversight of safety programs, contract
management, computer security, and program performance. The Inspector General’s staff also includes
trained criminal investigators who build criminal cases against lawbreakers—such as unscrupulous contrac-
tors that defraud Federally funded highway and transit construction projects, people who buy and sell fraud-
ulent Commercial Drivers Licenses, firms and individuals who falsify shipping documentation to conceal
shipments of hazardous materials, and industry parties that traffic in counterfeit and unapproved aircraft
parts. In addition, OIG’s investigative staff includes administrative investigators who specialize in conduct-
ing time-sensitive noncriminal investigations of importance to the Department and Congress, such as cases
involving employee misconduct and breaches of program integrity.

 Many factors go into determining what to audit. Some audits are required by law. Others are requested by
key decision makers, such as the Secretary of Transportation, heads of the Operating Administrations with-
in DOT, or members of Congress. The OIG audit plan is also based on the past experience of an audited
entity, the strategic goals of DOT, and priorities established each year by OIG itself. Since the events of
September 11, OIG has been re-evaluating its audit plans and how to make them better reflect the
Department’s increasing emphasis on security.

 Information for OIG investigations also comes from many areas. DOT’s Operating Administrations and
state government officials refer tips or information about suspicious activity to OIG special agents. Those
agents, often with assistance from other law enforcement agencies, conduct investigations utilizing, as
necessary, judicial tools such as search warrants and subpoenas to obtain evidence.

  Another source of investigative direction is the Office of Inspector General Hotline, a toll-free number that
gives citizens—including Federal workers—direct access to OIG investigative staff. The number is
1–800–424–9071. Hotline users are not obliged to disclose their identities, and whistleblowers within the
government are protected from reprisal by Federal law. The Hotline staff can also be e-mailed at hot-
line@oig.dot.gov.

 The Inspector General Act requires the Department to provide the Inspector General with all requested
information and for the IG to report any instance in which access was denied. DOT officials withheld no
information requested by OIG during the 6 months covered in this report. ■


                                                                                                             17
         April




 Funds Suspended for Seattle
 Central Link Light Rail Project                                                                           April 4

 IN RESPONSE TO A REQUEST FROM REP. HAROLD ROGERS,               Chairman of the House Appropriations
 Subcommittee on Transportation, we reviewed the Department’s January 19, 2001 approval of a $500
 million grant for the Seattle Central Link Light Rail Project. We found that the Federal Transit
 Administration (FTA) did not perform satisfactory due diligence in reviewing the grant application.


 We recommended that the Secretary direct
 FTA to hold the project’s funds and funding
 decisions in abeyance until (1) Sound Transit
 deals with issues that could significantly affect
 cost, schedule, and scope; (2) FTA and its
 consultant validate the estimated completion
 cost; (3) FTA and its consultant validate that
 funding sources are sufficient; and (4) Congress has the necessary 60 days to review the project’s grant
 agreement. The Secretary concurred with our recommendations and is withholding funding on the proj-
 ect. Sound Transit has proposed a revised alignment, which FTA is reviewing.



 Sentencings in Aviation Hazmat Case                                                                       April 6

 AIRBAGS EXPRESS, INC. (ABEI), OF DAVIE, FL,         was fined $10,000 by a U.S. District Court judge in
 Miami, FL, for illegally shipping hazardous materials. ABEI and company owner Valerie Enrique illegally
 shipped automobile airbags and igniting devices to a
 freight forwarder for scheduled transport by air carri-
 er, without properly labeling the hazardous materials
 as required by DOT regulations. Enrique, of
 Pembroke Pines, FL, received 3 years' probation and
 150 hours' community service. OIG investigated this
 case with the Broward County Sheriff's Office, the
 Miramar, FL, Police Department, and the FBI.
                                                       Airbag in packing material. (Photo courtesy of Broward County (FL)
                                                       Sheriff’s Office.)



18
                                                                                     April




HazMat Trucking Company Owner,
Head Mechanic Jailed                                                                         April 12

ROBERT SCHIPPERS, PRESIDENT, OWNER, AND OPERATOR                 of Schippers Services, a now-defunct
Easton, PA, trucking company, was sentenced in U.S. District Court in Philadelphia to 24 months’
imprisonment and a $7,300 fine for illegally transporting hazardous materials. Schippers and the com-
pany’s chief mechanic, Ronald Padula, pleaded guilty in February 2000 to charges of illegally trans-
porting hazardous materials in leaking and uninspected cargo tanks and discharging hazardous materi-
als into Easton's public sewer system. Padula was sentenced to 10 months’ imprisonment and a $1,150
fine. OIG and the U.S. Environmental Protection Agency’s (EPA) Criminal Investigations Division
investigated the case as a result of a referral from FMCSA.



CDL Staffing Company Owner
Fined in Drug Testing Case                                                                   April 18

ROY C. SMILLIE, OWNER OF CDL STAFFING, INC.,            of Arlington, TX, was fined $4,000 and placed on
2 years’ probation by a U.S. District Court judge in Arlington, for falsifying drug tests of commercial
truck drivers. CDL Staffing, Inc., is a now-defunct temporary staffing agency that provided motor car-
rier companies with qualified truck drivers. Smillie instructed his employees to destroy records of posi-
tive drug tests and record only negative results. Upon learning of the positive test results, Smillie
instructed drivers to return to his shop after they ingested "golden seal," a substance used to mask other
drugs. FMCSA provided technical assistance to OIG during the investigation.



NHTSA Engineer Sentenced                                                                     April 20

LLOYD H. EMERY, A NHTSA HIGHWAY         safety research engineer, was sentenced by a U.S. District Court
judge in Alexandria, VA, to 3 years’ probation and ordered to pay $8,250 in restitution and a $3,000
fine. Emery pleaded guilty in January 2001 to bankruptcy fraud charges stemming from his conceal-
ing approximately 33,000 shares of common stock he held in West Coast Mines, Inc., from creditors
and the United States Trustee during proceedings in U.S. Bankruptcy Court. OIG investigated this
case with the FBI.


                                                                                                        19
               April

                                            Flight Delays and Cancellations
      Flight delays and cancellations—and the related issues of capacity enhancement and air traffic control improvements—command-
     ed a significant amount of OIG’s attention before the events of September 11th. The combination of burgeoning demand and limited
     growth in capacity resulted in widespread customer dissatisfaction with air travel, which FAA, airlines, and airports all have a role in
     addressing.

       Early in 2001, at the request of Rep. Harold Rogers, Chairman of the House Appropriations Subcommittee on Transportation, we focused
     on efforts by the Department, FAA, and the airlines to reduce the number and frequency of flight delays and cancellations. We testified
     three times before the subcommittee and subsequently made recommendations to the Department and FAA based on our testimony.

       In an April 3 report (based
     on our March 15 testimony),
     we observed that flight delays
     and cancellations, as well as
     consumer dissatisfaction
     with the airlines, were at an
     all-time high. Unknown at that
     point was whether the inter-
     nal and external factors that
     had wreaked havoc with air-
     line schedules in 2000 would
     be repeated in 2001. We recommended that FAA establish a uniform system for tracking delays, cancellations, and their causes, and
     issue capacity benchmarks for the nation’s 30 largest airports. DOT’s ability to address delays and cancellation was significantly
     handicapped by the lack of a uniform system for tracking delays, cancellations, and their causes. This had led to misleading and
     inconsistent data.

       At the May 3 hearing, we were able to state that FAA had (1) adopted the Department’s definition of a delayed flight—as one arriving
     15 minutes or more after the scheduled arrival time; (2) established capacity benchmarks for 31 major airports that defined the maxi-
     mum number of flights per hour that each airport could routinely handle at various times of the day and under favorable and unfavor-
     able weather conditions; and (3) devised the National Operational Evolution Plan (a set of initiatives and milestones for expanding
     capacity in the air traffic control system). In addition, the Department enlisted four air carriers to participate in a pilot program to track
     the causes of flight delays and cancellations. We advised the subcommittee the next crucial step was how effectively and in how time-
     ly a fashion FAA and the Department would implement these actions.

       By our August 2 testimony, we were able to report significant reductions in arrival delays and cancellations for the first half of 2001.
     Those delays which occurred were shorter in duration, and consumer complaints against the major air carriers decreased nearly 20
     percent between the first 6 months of 2000 and 2001. This was due to (1) better weather; (2) fewer labor disruptions; (3) FAA and airline
     actions to improve communication, air traffic management, and airspace/airport usage; and (4) voluntary actions by several of the major
     airlines with respect to adjusting their flight schedules.

       Despite these favorable statistics and trends, both the Department and the airlines need to continue working on long-term solutions
     to the underlying problems of capacity limits, scheduling, and disclosure. As reported in our August 17 transmittal of recommendations
     from our August 2 hearing: (1) DOT still lacks a uniform system for tracking the causes of flight delays and cancellations; (2) airlines need
     to notify passengers at the time of booking, without being asked, the prior month’s on-time performance for those flights which have
     been consistently delayed and/or cancelled 40 percent or more of the time; (3) airlines need to clarify the rights of passengers forced
     into an overnight situation due to delays, cancellations, or diversions; (4) FAA needs to continue working on eliminating the seven major
     airspace chokepoints, and to finalize its budget and plans for Free Flight Phase 2; and (5) airport runway projects, which will provide the
     most capacity improvements, are in various stages of progress, and most will not be completed until the period 2004–2007.

       The events of September 11 have forced both the Department and the airlines to make aviation security the primary focus of their
     attention and resources. As the provisions of the Aviation and Transportation Security Act of 2001 are implemented, as passenger con-
     fidence in aviation is restored, and as the economy rebounds, we expect interest in reducing delays and cancellations will resurface
     as key aviation issues.




20
                                                                     April          -   May




MARAD Officer Fined in Bribery Case                                                           April 25

MARITIME ADMINISTRATION SPECIAL PROJECTS              officer Francis Peter O’Connell was fined $2,500
by a U.S. District Court judge in Beaumont, TX, for receiving unauthorized compensation on a gov-
ernment contract. O'Connell pleaded guilty in December 2000 to accepting $3,250 in consulting fees
from BGI Enterprise, Inc., on a U.S. Coast Guard contract to remove abandoned barges from inter-
coastal waterways. OIG investigated this case with the FBI, the Defense Criminal Investigative Service,
and the Naval Criminal Investigative Service.



Illinois Official Sentenced in Bribery Scandal                                                April 25

DEAN R. BAUER, THE FORMER INSPECTOR GENERAL                  for the State of Illinois Secretary of State's
Office, was sentenced to 366 days in Federal prison by a U.S. District Court judge in Chicago for his
role in a licenses-for-bribes scandal. Bauer was also ordered to pay a $10,000 fine. Bauer pleaded guilty
January 17, 2001, to obstruction of justice in his effort to thwart the Federal investigation known as
"Operation Safe Road" focusing on fraud in the Illinois CDL program, administered by the Secretary
of State. Operation Safe Road is a task force investigation involving OIG, the FBI, the IRS Criminal
Investigative Division, the Postal Inspection Service, and the Illinois State Police.



Electronic Mail System Replacement                                                               May 3

THE   FEDERAL      RAILROAD      ADMINISTRATION          (FRA) awarded a $760,000 contract to
USinternetworking (USi) to replace its electronic mail system. FRA selected USi without competition
after confirming it was the sole application
                                                                                                         Government Computer News




service provider (ASP) on the General
Services Administration (GSA) schedule. We
concluded the selection criterion was flawed.
There are no industry standards or certifica-
tion programs for ASPs; rather, it is up to
service providers to decide whether they want



                                                                                                         21
          May




 to be identified in the industry or on the GSA schedule as an ASP. Other GSA-approved e-mail service
 providers that did not identify themselves as ASPs were capable of providing the services required.
 Therefore, FRA’s use of ASP as a criterion to justify a noncompetitive contract award to USi was flawed
 and inappropriately excluded other vendors from consideration. We recommended that FRA terminate
 the contract with USi at the end of one year, enhance the capability of procurement personnel to bet-
 ter understand information technology, and review the financial reliability of prospective contractors on
 the GSA schedule before awarding future contracts. FRA did not agree with OIG’s conclusion that a
 flawed criterion was used to select USi but agreed with the recommendations.



 Fluor Daniel to Pay $8.2 Million
 Settlement for Overbilling Government                                                          May 7

 FLUOR DANIEL, INC., ONE OF THE NATION’S LARGEST                 engineering and construction companies,
 agreed to pay the United States $8.2 million to settle a whistleblower complaint accusing it of improp-
 erly charging commercial overhead costs to its Federal contracts. As part of the agreement reached in
 U.S. District Court in Los Angeles, CA, the company did not admit guilt. The company was charged
 in 1997 with submitting millions of dollars in false invoices to the Government. Fluor Daniel was under
 contract to perform engineering and construction projects for numerous Federal agencies, including
 FAA and the Federal Transit Administration. DOT’s portion of the improper charges totaled over
 $623,000 in project management oversight services. OIG investigated this case with the Department of
 Energy’s OIG, the Defense Criminal Investigative Service, the Army Criminal Investigation Division,
 and the Defense Contract Audit Agency.



 Implementing NAFTA’s
 Cross-Border Trucking Provisions                                                               May 8

 AT THE REQUEST OF SENATOR ERNEST HOLLINGS,                   Chairman of the Senate Committee on
 Commerce, Science, and Transportation, and Rep. Jim Oberstar, Ranking Democratic Member of the
 House Committee on Transportation and Infrastructure, we provided a status report on conditions
 related to inspection of commercial vehicles at the United States-Mexico border. We found that (1) the



22
                                                                                              May




percentage of Mexican trucks removed from service
because of serious safety violations decreased from 44
percent in FY 1997 to 36 percent in FY 2000; (2)
FMSCA increased the authorized number of inspectors
at the southern border from 13 in FY 1998 to 60 in FY
2001, and asked for 80 additional enforcement person-
nel in its FY 2002 budget request; and (3) there have
been few needed improvements to inspection facilities Otay Mesa Crossing, CA, outside San Diego. (Photo by Barbara
used by Federal and state commercial vehicle inspec- Cobble.)
tors at border crossings. We recommended that FMSCA finalize and execute a comprehensive plan
which specifies actions and completion dates for implementing the North American Free Trade
Agreement’s (NAFTA) cross-border provisions and which ensures safety at the southern border and
across the United States. The Department concurred with our recommendations and is considering
them as it develops a comprehensive safety strategy.



Texas Man Prohibited from
Working in Aircraft Maintenance                                                                      May 14

DARRELL MICHAEL RANSON WAS PROHIBITED            from working in aircraft maintenance for 2 years
and fined $500 by a U.S. District Court judge in Fort Worth, TX, for forging the signature of an
FAA Designated Airworthiness Representative. Ranson falsely indicated a hydraulic fuse was new
and manufactured in accordance with FAA approval data. The fuse helps regulate hydraulic pressure
on aircraft.



Fine Levied for Fraudulent
Repairs on USCG Gyroscopes                                                                           May 15

NATARAJAN NARAYANAN, PRESIDENT OF NARAS AVIATION,                 a Miami, FL, aviation repair facility,
was fined $250,000 in U.S. District Court in Miami for making false claims regarding modifications of
aircraft gyroscopes, used in guidance and navigation, for the U.S. Coast Guard (USCG). Narayanan



                                                                                                                23
          May




 and his company pleaded guilty in January 2001 to replacing
 Coast Guard gyroscopes with used, unairworthy parts and billing
 the Coast Guard for new parts. The company was also ordered to
 hire an outside independent aviation consultant to audit its oper-
 ations. OIG and the Defense Criminal Investigative Service inves-
 tigated the case with assistance from the quality assurance section
 of the USCG Aircraft Repair and Supply Command in Elizabeth
 City, NC.                                                             A gyroscope. (Photo courtesy of Defense
                                                                       Criminal Investigative Service.)




 Guilty Plea in MARAD False Bids Case                                                            May 23

 WALLACE BATISTE, SR., AND HIS COMPANY           W.B. Construction, a contractor for MARAD at the
 Beaumont, TX, Ready Reserve Fleet, pleaded guilty in U.S. District Court in Beaumont to charges of
 submitting false bids to obtain $400,000 worth of MARAD construction and service contracts between
 1993 and 1999. No sentencing date is scheduled. OIG conducted the investigation with assistance from
 the FBI and the Defense Criminal Investigative Service.



 No Improprieties Found in FAA Promotional Practices                                             May 25

 AT THE REQUEST OF SENATOR RICHARD LUGAR,             we investigated a constituent's concerns regarding
 the promotion, training, and leave policies of FAA technicians. Specifically, the concerns involved
 improper promotion of unqualified technicians, improper on-the-job training, and allowing untrained
 technicians to take on-the-spot annual leave without affording others the same opportunity. OIG found
 that (1) the employees in question were promoted based on a policy approved by their bargaining unit;
 (2) the supervisor had provided proper training; and (3) no disparate treatment existed regarding
 requested leave. OIG did find that some technicians had called in sick as opposed to requesting annual
 leave. When they returned to work, the technicians submitted annual leave requests for that period. FAA
 responded to us that they saw no problem with the practice, so long as management approved the leave.




24
                                                                        May        -    June




Aircraft Cable Manufacturer to Pay
$1.6 Million for False Certification                                                            May 30

STRANDFLEX COMPANY, A DIVISION OF                Maryland Specialty Wire, Inc., was ordered by a U.S.
District Court judge in Syracuse, NY, to pay a criminal fine of $500,000 and $100,000 in restitution
after pleading guilty to charges of making false claims to the United States regarding the certification of
aircraft cable. In a related case, Strandflex also agreed to pay $1 million to settle a civil complaint filed
under the False Claims Act. The company admitted to manufacturing aircraft cable and falsely certify-
ing that it met the manufacture and quality assurance testing requirements of U.S. military specifica-
tions. Relying on these certifications, Strandflex customers sold the cable to Government agencies and
the civilian aviation industry regulated by the FAA. During the investigation, the U.S. Attorney's Office
notified all known military, domestic, and international airline end users that had purchased Strandflex
cable to advise them it may not have met military specifications as required. OIG investigated with the
Defense Criminal Investigative Service and the National Aeronautics and Space Administration OIG.



Review of Department's 2000
Performance Report/2002 Performance Plan                                                          June 4

OIG REVIEWED THE DEPARTMENT'S 2000            Performance Report/2002 Performance Plan in response
to a request from Rep. Dan Burton, Chairman of the House Committee on Government Reform. We
found that the Department reasonably presented its progress and plans. Improvements in this year's
document included establishing a new performance measure on airport capacity. Areas for further
improvement include establishing a goal of rescuing an increasing percentage of mariners in imminent
danger and establishing performance measures on the rate of foreign and domestic commercial drivers
and vehicles placed out of service following inspection.



Pipeline Supervisor Sentenced
for Clean Water Violations                                                                        June 7

MICHAEL SALEY, A FORMER CONSTRUCTION SUPERVISOR                 at the Iroquois Pipeline Operating
Company, was fined $7,500 by a U.S. District Court judge in Syracuse, NY, for Clean Water Act viola-
tions stemming from the company’s construction of the Iroquois Pipeline, a gas pipeline running
                                                                                                           25
              June




 approximately 370 miles across New York State. Iroquois pleaded guilty in 1996 to related charges and
 was ordered to pay $22 million in fines, restitution, and civil recoveries. Saley was the last of four for-
 mer company officials to be sentenced in this case. OIG investigated the cases as part of a multi-agency
 task force with the U.S. Attorney's Office for the Northern District of New York.



                                                 Risks to Deploying STARS
       While FAA has nearly completed software development for the Standard Terminal Automation Replacement System (STARS), Alexis
     M. Stefani, Assistant Inspector General for Auditing, expressed concern to Congressional committee members over the agency’s abil-
     ity to deploy the system within the current cost and schedule. On June 13, in the second of an ongoing series of hearings on the status
     of STARS before the House Transportation and Infrastructure Subcommittee on Aviation, Stefani cited specific areas of concern,
     including FAA’s compressed software testing schedule, the significant number of problems noted during software testing, and delays
     in the development of a digital radar system needed to support STARS.

      Because FAA has established cost projections and a deployment schedule only through 2004, neither the agency nor OIG can deter-
     mine whether full deployment can be achieved by 2008, as planned. In addition, FAA has not evaluated whether an interim solution to
     STARS—known as Common ARTS (Automated Radar Terminal Systems)—would be needed to support FAA’s terminal automation
     needs, should STARS be further delayed.

        We recommended that FAA (1) complete a refined cost and schedule plan for the entire STARS program through 2008; (2) have the
     Mitre Corporation, (FAA’s Federally funded research and development center) revalidate the conclusions of its earlier evaluation after
     STARS software is retested in July 2001; and (3) develop a viable contingency plan in case of more delays. FAA agreed to have Mitre
     revalidate its conclusions after the July testing, and to complete by the end of FY 2002 a cost and schedule plan through 2008. FAA stated
     it has a contingency plan to address further delays but has not provided any documentation to support it.

       On September 13, in the third of the STARS hearings before the Subcommittee, Stefani testified that the risks to deploying STARS on
     schedule continue to increase. Even though FAA uncovered more problems during software retesting, it does not plan to adjust the
     STARS development schedule to allow for additional testing time. Instead, it developed a riskier plan to test all versions of STARS simul-
     taneously. Second, the ASR-11 digital radar program continues to pose a major risk to STARS. Finally, if STARS is not fully operational
     at Philadelphia International Airport by February 2003, airspace across the East Coast could be seriously affected.



 Former FAA Employee Sentenced for
 Government Credit Card Fraud                                                                                                  June 11

 FORMER FAA MECHANIC RONALD DEAN FRANK                 was sentenced to 10 months’ confinement—5
 months at a halfway house and 5 months at home—by a U.S. District Court judge in Anchorage, AK,
 for illegally making $58,338 in unauthorized charges on his office’s government credit card, including
 purchases for personal use from a custom auto body shop. Frank, who was working in the FAA’s Las
 Vegas Field Maintenance Unit at the time of the unauthorized purchases, was ordered to repay the
 entire amount.


26
                                                                                       June




Former FAA Employee Sentenced to
Prison in Software Theft                                                                       June 12

FORMER FAA SOFTWARE DEVELOPER             Thomas A. Varlotta was sentenced by a U.S. District Court
                               judge in Chicago, IL, to a year in prison for the theft of an air traffic con-
                               trol software source code the agency had spent $1 million to develop.
                               Varlotta led a four-person team that worked for 5 years to develop an air
                               traffic control navigation program which relayed critical flight data
                               between Chicago O'Hare Airport and the Elgin, IL, Terminal Radar
                               Approach Control facility. Varlotta resigned his FAA position in June
                               1998, telling his supervisor he had accidentally destroyed the original
                               source code for the program. OIG investigators searched Varlotta’s home
                               and discovered a floppy disk containing an encrypted version of the code.



IG Examines Coast Guard Funding and Safety Issues                                              June 13

IN TESTIMONY BEFORE THE SENATE            Appropriations Subcommittee on Transportation, the IG stated
that the Coast Guard will need at least $15 billion in capital spending over the next 20 years to mod-
ernize assets critical to the agency’s safety and other missions. The two largest capital projects are the
National Distress and Response System Modernization Project and the Deepwater Capability
Replacement Project. To accommodate these projects, the Coast Guard’s capital acquisition budget will
need to more than double, from $400 million annually to at least $1 billion annually on a sustained basis.


The IG warned that the Coast Guard would be vying in future years with other programs—such as
transportation security, FAA operations, and Amtrak—that are also seeking budget increases and com-
peting for limited transportation funding. Since the testimony, the catastrophic events of September 11
have forced the Coast Guard to devote the majority of its resources to port security functions at the
expense of other missions. This expansion of the homeland security mission will likely increase the Coast
Guard’s acquisition needs.




                                                                                                           27
          June




 Pay Inequities in FAA Air Traffic Line of Business                                               June 15

 OUR REVIEW OF PAY PARITY WITHIN THE FAA'S               air traffic line of business found that the agency's
 decision to limit the pay system of managers, supervisors, and specialists (MSS) to field facilities has
 resulted in pay inequities within the line of business. We found numerous instances of employees
 assigned to similar positions but receiving significantly different pay. For example, base salaries for staff
 specialists in field facilities ranged from $103,000 to $121,000, while those in regional facilities ranged
 from $79,000 to $105,000. The inequities have been compounded by FAA policies allowing employees
 to retain their higher salaries when they transfer from field facilities to headquarters or regional positions.




 We recommended that FAA evaluate all MSS positions and ensure that pay bands are aligned to reflect
 the position's duties, responsibilities, and importance to FAA's missions. FAA is reviewing nonsuper-
 visory MSS positions in headquarters and regional offices to ensure they are appropriately aligned with
 the correct pay band. FAA is also reviewing vacant controller positions and converting them to a dif-
 ferent job series when appropriate.



 Airline Customer Service Update                                                                  June 20

 IN TESTIMONY BEFORE THE HOUSE TRANSPORTATION SUBCOMMITTEE                       on Aviation, the Inspector
 General discussed the airlines’ progress in improving customer service since release of our February 13,
 2001, report on customer service. The IG testified that the nation’s major airlines had announced addi-
 tional customer service initiatives in response to our audit, including (1) incorporating the 12-provision
 commitment to upgrade customer service into their contracts of carriage, (2) establishing systems for
 measuring performance, and (3) petitioning the Department to re-examine regulations for reporting
 mishandled baggage and compensating passengers who are involuntarily bumped from flights.



28
                                                                                       June




The major airlines also formed a task force to coordinate efforts to deal
with lengthy delays, help passengers forced to stay overnight because of
delays, cancellations, and diversions, and make plans to help ensure the
accuracy of airport flight display monitors. Notwithstanding this
progress, the IG expressed concern that the airlines were unwilling to
voluntarily notify customers at booking about flights which were con-
sistently delayed (30 minutes or more) or canceled (40 percent or
more) during the previous month.



Guilty Plea in Illegal Sale of
Unapproved Aircraft Parts Case                                                                 June 21

ROSE FLORES PLEADED GUILTY         in U.S. District Court in Houston, TX, to tax evasion charges for fail-
ing to report income from the sale of scrapped aircraft parts to an aircraft repair station and an aircraft
broker. In April, Roger T. Sickler, co-owner of RTS Rework, Inc., an FAA-approved aircraft repair sta-
tion, and RTS Services, Inc., an aircraft broker, were indicted on charges of money laundering, wire
fraud, and conspiracy for their role in the scheme to sell the scrapped parts for use as FAA-approved
parts in commercial and military aircraft. No sentencing date has been set. This case was investigated
by OIG and the Defense Criminal Investigative Service.



Trucking Firm Pleads Guilty to
Falsifying Service and Employee Records                                                        June 25

ROBERT DEROSE, OWNER OF DEROSE TRUCKING                (DT), his son Christopher, also employed by DT,
and a DT driver, Robert Ruise, all pleaded guilty in U.S. District Court in San Jose, CA, to falsifying
records of drivers’ compliance with hours-of-service regulations and drug and alcohol abuse records.
The men altered records to indicate that drivers were off duty when in fact they were working in viola-
tion of Federal hours-of-service limits. Company officials also failed to enforce the carrier’s drug test-
ing policy as required by Federal regulations and allowed its drivers to continue driving after testing pos-
itive for drug use. Sentencing has not been set.



                                                                                                          29
               June




 Reducing Runway Incursions                                                                                                  June 26

 THE IG TESTIFIED BEFORE AND RELEASED A REPORT                    to the House Transportation and
 Infrastructure’s Aviation Subcommittee regarding runway incursions—incidents that create a collision
 hazard. While FAA has placed substantial management focus on reducing incursions in recent years, the
 number of potentially hazardous incidents continues to increase. There were 431 runway incursions in
 calendar year 2000, an average of more than one a day. Two significant factors have constrained FAA’s
 progress. First, FAA has not done enough to provide technologies to airports with continued runway
 incursion problems. Second, the Runway Safety
 Program Director has little authority to ensure the com-
 pletion of initiatives undertaken by employees responsi-
 ble for runway safety. FAA agreed to review the need for
 technology at airports with continued runway incursion
 problems, reevaluate the deployment schedule of the
 Airport Movement Area Safety System, decide on the fea-
 sibility of implementing new technologies to assist pilots
 in reducing runway incursions, and improve the account-
 ability for runway safety initiatives.


                        Amtrak Financial Issues Spur Debate Over Its Future
       In a June 21 report to the Secretary and subsequent testimony before the
     House Transportation & Infrastructure Railroad Subcommittee on July 25, the
     IG stated that Amtrak’s financial performance was not meeting expectations.
     Both Amtrak’s revenue and ridership have grown, but growth in expenses has
     kept pace, resulting in large operating losses.

       In June, we expressed concern over Amtrak's cash flow shortfalls, which
     were exacerbated by further delays in the delivery of Acela trainsets, from
     September to December 2001. Amtrak's solution to this shortfall, mortgaging
     Penn Station-New York, will allow the railroad to remain solvent in the short-
     term, but will add at least $27 million each year to its already significant inter-
     est expense.

                                                      During our July testimony, we also expressed concern about Amtrak’s long-term capital
                                                    funding needs. Amtrak would still need substantial Federal capital appropriations—about
                                                    $750 million each year—even if it should achieve self-sufficiency. The proposed $12 bil-
                                                    lion high-speed rail investment bond bill would neither offset Amtrak’s need for annual
                                                    Federal capital funding nor meet the full costs for developing each of the 10 designated
                                                    high-speed corridors.

30
                                                                                          July




Florida Freight Company Fined
in Hazmat Pollution Case                                                                            July 5

LILIANA GUZMAN-HAYNES, PRESIDENT, Olympic International Freight Forwarders, Inc. (OIFF), was
fined $29,095 by a U.S. District Court judge in Miami, FL, after being convicted on April 12 of ille-
gally storing hazardous wastes that were later illegally dumped.
As a freight forwarder, OIFF often handled the transportation
of hazardous materials. An investigation of the dumping of
extensive amounts of toxic chemicals—such as acids, carcino-
gens, and poisons—in western Dade County, FL, traced the
chemicals to OIFF. OIG investigated the case with the U.S.
Environmental Protection Agency Criminal Investigation
Division, the Miami-Dade Police Department, the Dade
County Environmental Resources Management Department, Dumped hazardous wastes. (Photo courtesy of
                                                                 Environmental Resources Management, Miami-Dade
and the Florida Department of Environmental Protection.          County, FL.)




Private Pilot Fined for Flying Unauthorized Aircraft                                                July 6

WILLIAM E. SPAFFORD, A PRIVATE PILOT           in Cortland, NY, agreed to pay a $20,000 fine as part of a
civil settlement with FAA, following an OIG investigation, for illegally displaying registration and seri-
al numbers on an aircraft. Spafford displayed a U.S. registration number and serial number from two
aircraft on a third plane, originally registered as Mexican, in order to continue to fly it. He pleaded
guilty in U.S. District Court in Syracuse, NY, in January 2000 to a charge of providing false statements
to the FAA.



Two Men Ordered Jailed for
Making Faulty Helicopter Rotor Blades                                                               July 6

FRANK CURTIS CHERRY, JR., AND HIS SON         Frank Curtis Cherry III were ordered jailed for their role
in making defective rotor blades, which caused a helicopter crash in October 1995 that resulted in the
deaths of the pilot and sole passenger. The two men pleaded guilty October 18, 2000, to charges that


                                                                                                             31
          July




 they falsified the airworthiness certificate of two helicopters and rotor blades to conceal their poor con-
 dition. Cherry Jr., was ordered by a U.S. District Court judge in Los Angeles, CA, to serve 18 months
 in prison, and his son received a 14-month jail term.



 Moving Company Owner and Foreman
 Jailed for Defrauding 259 People                                                                         July 13

 YARON TISHBY, FORMER PRESIDENT AND OWNER              of All American Van Lines of Pembroke Park, FL,
 was fined $2.5 million and ordered jailed for 40 months by a U.S. District Court judge in Miami, FL,
 for his role in defrauding 259 victims in a household goods moving scam in south Florida. Tishby and
 four other defendants induced victims to contract for household goods moving and shipping services,
 while fraudulently forcing them to pay significantly higher, bogus hidden costs. The defendants then
 held the goods as ransom and, in some cases, never returned the victims' belongings. Tishby pleaded
 guilty to conspiracy to commit wire and mail fraud and violating Federal transportation tariffs. Tishby,
 an Israeli citizen, will be deported following completion of his prison sentence. Ramon DelValle,
 former All American Van Lines foreman, was sentenced May 11 to 20 months in prison and ordered to
 pay $780,543 in restitution. The other three defendants are awaiting sentencing. OIG investigated this
 case with the Florida Department of Law Enforcement and the FBI, with assistance from FMCSA.



 Motor Carrier Safety at the U.S.–Mexico Border                                                           July 18

 THE INSPECTOR GENERAL TESTIFIED             in separate hearings before the Senate Committee on
 Commerce, Science, and Transportation and the House Transportation and Infrastructure Highways
 and Transit Subcommittee regarding motor carrier safe-
 ty at the U.S.-Mexico border. He stated that the United
 States has improved its inspection presence and controls
 and Mexico has progressed in establishing safety over-
 sight requirements. We recommended that FMCSA (1)
 use additional motor carrier inspectors during all border
 crossing operating hours; (2) complete safety reviews
 before granting Mexican motor carriers’ conditional
                                                             Mexican trucks being inspected at the southern border. (Photo
                                                             by Barbara Cobble.)

32
                                                                                      July




operating authority and inspect all long-haul commercial vehicles and drivers before or as they enter the
United States; (3) act against those carriers which do not comply with safety regulations; (4) obtain land
at border crossings to conduct inspections and place vehicles out of service; (5) revise proposed rule-
makings on application procedures and a monitoring system; and (6) conduct workshops and out-
reach sessions to provide guidance and facilitate application processing.



California Man Bribes MARAD Employee;
USCG Halts Ship Transfer                                                                      July 20

STEVEN DESSIN OF BENICIA, CA, WAS ORDERED             jailed for 4 months by a U.S. District Court judge
in Sacramento, CA, for charges of bribing a MARAD employee. Dessin offered the MARAD worker
free automobile repair services and parts in exchange for generators, steam valves, pumps, and other
equipment used on retired government-owned vessels. The MARAD employee notified OIG, and OIG
special agents learned that Dessin established a nonprofit organization for the purpose of obtaining the
decommissioned Coast Guard cutter Fir through the U.S. Coast Guard’s direct donation program.
OIG determined the organization was fictitious, and the Coast Guard subsequently halted transfer of
the vessel, valued at over $2 million. The FBI assisted OIG in the investigation.



Truck Driving School Instructor
Jailed for Bribing Examiners                                                                  July 20

ALEX MCLECZYNSKY, A TRUCK DRIVING-SCHOOL INSTRUCTOR                  was sentenced to 30 months in
prison by a U.S. District Court judge in Chicago for receiving bribes of up to $1,000 from unquali-
fied CDL applicants in Illinois in order to pass the Federally mandated written portion of the CDL
examination. McLeczynsky would then bribe CDL examiners to ensure the applicants would get
passing grades.




                                                                                                        33
          July




 Florida Man Jailed in Traffic Signal Scam                                                         July 26

 JOHNNIE C. GREENE WAS SENTENCED              to 13 months’ incarceration by a U.S. District Court judge in
 Miami, FL, after pleading guilty on June 18 to mail fraud charges for selling a "go-box" device that pur-
 portedly changed red traffic signals to green. He was prohibited from engaging in telemarketing, self-
 employment, and access to the Internet without permission
 of the U.S. Probation Office. Greene’s company, CFG,
 Inc., advertised the device over the Internet, but failed to
 provide the device to customers. Tests of the "go-box"
 found it did not affect traffic signals as advertised. The case
 was investigated by OIG, the Florida Department of Law
 Enforcement, the Miami-Dade Police Department, and the
 U.S. Postal Inspection Service.                                 Disassembled go-box. (Photo by Barbara Barnet.)




 NHTSA Clerk Pleads Guilty to Theft of Public Money                                                July 26

 MARY L. GUTHRIE, A DATA CONTROL CLERK                    with the National Highway Traffic Safety
 Administration, pleaded guilty in U.S. District Court in Washington, D.C., to a misdemeanor count of
 theft of public money. An investigation found that Guthrie forged U.S. Treasury payments totaling
 more than $5,000 for direct deposit into a friend’s account, to which she had access, for a year follow-
 ing his death. Sentencing is scheduled for October 5.



 Upgrades to Automated Surface
 Observing System Recommended                                                                      July 26

 AT THE REQUEST OF SENATOR OLYMPIA SNOWE,                we reviewed FAA’s Automated Surface Observing
 System (ASOS). That system provides pilots with weather information and has replaced human weath-
 er observers at many small rural airports, at a cost of more than $230 million. Studies show that ASOS
 generally performs as well as human weather observers. However, we found that performance suffers
 when weather conditions change rapidly and unexpectedly. Specific concerns include ASOS visibility and
 ceiling observations; time allotted to make repairs; and the need to replace system hardware and soft-


34
                                                                July         -   August




ware to coordinate improvements among Federal agencies. We recommended that FAA revisit and final-
ize plans for upgrading ASOS to improve ceiling and visibility observations, set realistic milestones for
improvements, and provide the needed resources. These improvements must be coordinated with the
National Weather Service and the Department of Defense.



Illinois Road Test Examiner Jailed For Bribery                                               August 3

JOHN CONTI, A STATE OF ILLINOIS ROAD TEST EXAMINER,                was sentenced in U.S. District Court in
Chicago to 11 months in jail and fined $4,000 for accepting $90,000 in bribes from driving school
owners to pass hundreds of unqualified motorists on road exams. Conti’s cooperation in the investiga-
tion resulted in the indictment and conviction of four driving school owners and seven other State of
Illinois examiners for taking bribes. This was part of the ongoing Operation Safe Road joint investigation.



Deficiencies Found in New DOT
Financial Management System                                                                  August 7

THIS REPORT PRESENTED OUR INITIAL ASSESSMENT              of the Department’s implementation of a new
financial management system known as "Delphi." We identified significant deficiencies with Delphi's
capability to function as the Department's core financial management system. For example, Delphi did
not appropriately or automatically account for prior-year funds, nor did it have adequate internal con-
trols in place to prevent DOT agencies from changing each other’s financial data. Delphi also did not
generate financial statements and other required financial reports.


We recommended that DOT (1) dis-
continue implementation of Delphi in
                                                                                                         Government Computer News




other agencies until the contractor can
provide a compliant, fully functioning
system for the Federal Railroad
Administration; (2) establish a correc-
tive action plan to resolve the major
outstanding deficiencies; (3) implement


                                                                                                          35
          August




 and test Delphi’s disaster recovery and business continuity plan; (4) develop a comprehensive risk-man-
 agement strategy for FAA; and (5) prepare a revised remediation plan for Delphi. DOT halted imple-
 mentation of Delphi and currently plans to have it fully implemented by December 31, 2002, at an
 estimated implementation cost of about $80 million.



 Trucker Involved in Fatal Crash
 Pleads Guilty to Falsifying Logbook                                                         August 8

 TRUCK DRIVER KENNETH BUTLER PLEADED GUILTY                in U.S. District Court in Philadelphia, PA, to
 charges of violating Federal hours-of-service regulations that resulted in the 1999 death of an automo-
 bile driver in Lower Makefield Township, PA. Butler falsified his driver’s logbook to indicate that he was
 off duty on October 14, 1999, when in fact he was driving his truck and was involved in a crash with
 an automobile. A 38-year-old woman was killed in the crash. Sentencing is set for December 12, 2001.



 Motor Carrier Applicant Jailed for Wire and Mail Fraud                                      August 9

 SEAN BRINKLEY, OWNER OF NOW-DEFUNCT                Friendly Transportation, of Richmond, VA, was sen-
 tenced in U.S. District Court in Norfolk, VA, to 37 months in jail for misrepresenting himself as a com-
 mercial passenger bus driver to R&J McMynn (a Canadian company). Brinkley pleaded guilty on July 2
 to mail fraud charges. He pleaded guilty on April 30 to wire fraud in the same case. Brinkley used a fax
 machine to submit false documents to R&J in order to lease and operate two high-end commercial buses
 for hire in the United States. Brinkley was also ordered to pay $112,583 in restitution. OIG investigat-
 ed this case with the FBI.



 Shortcomings Identified in
 Woodrow Wilson Bridge Project                                                             August 10

 IN A JUNE 8, 2001, DRAFT REPORT       to the Secretary, we identified significant shortcomings that had
 to be corrected before the Department could approve the finance plan for the Woodrow Wilson Bridge
 Corridor Reconstruction Project, outside Washington, D.C. Specifically, the cost estimates for the proj-


36
                                                                                         August




ect were inadequate, full funding for the project had not been identified, Maryland and Virginia were
proposing to delay critical work, and Congressional direction on the use of Federal funds was not being
followed. In response to our draft report, FHWA
and the two states agreed to revise the finance plan.
We concluded in a status report, released August 10,
that if the states meet their commitment, the
Secretary will have an adequate basis to approve the
plan. On September 5, 2001, the states submitted a
revised finance plan, which the Secretary approved
on September 7.
                                                        Wilson Bridge pile-driving operation on the Potomac River.




Jail Ordered for Hauling Hazardous Materials                                                         August 13

GARY RASMUSSEN WAS SENTENCED                in U.S. District Court in San Diego, CA, to 5 months in jail for
hauling and dumping hazardous materials without permits. Rasmussen was convicted of hauling crys-
tallized picric acid, which is explosive and shock sensitive, and dumping it at an unpermitted site in Chula
Vista, CA. Rasmussen was also fined $3,000 and ordered to pay $50,689 to the EPA for clean-up costs.
OIG investigated this case with EPA’s Criminal Investigations Division, the FBI, the San Diego County
Environmental Health Services Department, and the San Diego District Attorney's Office.



Mechanic Pleads Guilty to
Lying About Aircraft Inspection                                                                      August 13

MELVIN KERNICK OF OAKLAND, CA,           pleaded guilty in U.S. District Court in Oakland to charges of
falsely certifying that maintenance he had done on a private plane was reviewed by a certified inspector.
Kernick performed work on a privately owned AeroCommander aircraft at an airport in Danbury, CT,
and signed the name of an FAA-certified inspector in the plane's logbooks. A sentencing date has not
been set.




                                                                                                                     37
          August




 Mechanic Jailed for
 Misuse of Aircraft Mechanic Certificate                                                      August 13

 MICHAEL SANDIC PLEADED GUILTY             in U.S. District Court in Phoenix, AZ, to charges of possessing
 and using a false aircraft maintenance certificate after it was revoked by the FAA. Sandic continued to
 represent that he was a fully certified mechanic, presenting a falsified aircraft mechanic certificate to four
 separate companies in Arizona and falsely stating that he had an airframe and power plant mechanic rat-
 ing when he applied for employment at British Aerospace Systems in Lancaster, CA, and at Lockheed
 Martin in Springfield, MA. He was sentenced to 2 years’ imprisonment and $4,653 in fines, and per-
 manently barred from working as a mechanic in the aviation industry. OIG was assisted by the U.S.
 Marshals Service in locating and arresting Sandic.



 Paving Contractor Pleads Guilty to
 Bribery of Public Officials                                                                  August 14

 JAMES R. SABATINE PLEADED GUILTY            in U.S. District Court in Cleveland, OH, to racketeering
 charges stemming from his bribing Mahoning County, OH, officials in order to continue receiving
 county asphalt contracts. Sabatine, owner of Hardrives Paving & Construction, Inc., Youngstown, OH,
 also admitted that he submitted fraudulent invoices for asphalt that was never applied. OIG investigat-
 ed this case with the FBI, the IRS Criminal Investigation Division, and the Department of Labor OIG.
 Sentencing has not been scheduled.



 Pilot Pleads Guilty to Falsifying FAA Documents                                              August 15

 BRIAN G. VATER PLEADED GUILTY          in U.S. District Court in Arlington, TX, to charges of making false
 entries on FAA documents. Vater, a pilot and part owner of Alamo Aviation, Inc., of Arlington, signed
 off on FAA maintenance records even though he is not a certified aviation mechanic. He also entered
 false information on his FAA airman’s certificate and his medical certificate, both of which are prereq-
 uisites to legally flying. A sentencing date has not yet been scheduled. This investigation was conduct-
 ed by OIG, with assistance from FAA.



38
                                                                               August




Former Fugitive Bus Driver Jailed for Lying to Get CDL                                   August 20

REUBIN ROOSEVELT PETE WAS SENTENCED            in U.S. District Court in Greensboro, NC, to 36 months
in prison and fined $1,000 for using a false name to obtain a commercial driver’s license and to apply
for a job at a motor coach company after his driver’s license had been revoked. Pete pleaded guilty to
charges of providing false information on a Federal Drug Testing Custody and Control Form on June
12, 2000, and subsequently fled to avoid imprisonment. He was arrested on a fugitive warrant in Ohio
and extradited to North Carolina for sentencing.



FAA Telecommunications Replacement Poses Risks                                           August 21

OUR INITIAL ASSESSMENT OF FAA’S PLAN              to replace its telecommunications systems—the FAA
Telecommunication Infrastructure Project (FTI)—concluded the agency faces significant challenges and
risks with the proposed project. The major risk is that air traffic control systems, which now operate on
dedicated networks, would share the same network with administrative systems that have direct con-
nections to the Internet, thereby making air traffic control systems more vulnerable to unauthorized
intrusion. We also found that the initially approved $1.9 billion cost baseline over 10 years lacked sup-
port and the technical and financial requirements for supporting future air-to-ground communication
needs were not addressed. FAA concurred with our recommendations by revising FTI requirements to
keep air traffic control systems on a dedicated network and including higher technical requirements to
support future communication needs.



Conspirator Sentenced in $140 Million
Motor Fuel Tax Case                                                                      August 24

ALEX KRECHMAR OF BROOKLYN, NY,           was fined $6,000 and placed on probation by a U.S. District
Court judge in Camden, NJ, for his part in a scheme with over 20 people to evade payment of motor
fuel taxes totaling $140 million. The prosecution was the result of an undercover investigation by a
multi-agency task force that included agents from OIG, the IRS, and the FBI.




                                                                                                       39
         August




 DBE Fraud Investigation Yields Guilty Verdicts                                        August 29

 TARAND TRANSPORT, INC., OF LAND O’LAKES, FL,          was convicted by a Federal jury in Tampa, FL,
 and fined $268,878 for conspiring to circumvent Federal and state disadvantaged business enterprise
 (DBE) requirements for highway construction projects. Company owners Randy W. and Tammy J.
 Blankenship, and Howard L. Glover, doing business as H.J. Trucking, were also found guilty of the
 same charges and are scheduled for sentencing in mid-November. Two other defendants, J.D. Miller
 and J.D. Miller & Sons Trucking, Inc., had already pleaded guilty and were sentenced on September
 20. The company was fined $30,000, and Miller received a $3,000 fine; both received 5 years’ proba-
 tion. The defendants were barred from future Federal Government contract work. OIG investigated this
 case with the State of Florida DOT OIG and the Florida Department of Law Enforcement.



 Guilty Pleas in Avionics
 Equipment Repair Kickback Case                                                        August 29

 TIMOTHY COUCH PLEADED GUILTY            in U.S. District Court in Ft. Worth, TX, to overcharging the
 Government and receiving kickbacks for repairs of Coast Guard and FAA avionics equipment. Couch,
 the vice president of RTS Services, Inc. (RTS), located in Hurst, TX, and two co-defendants were pre-
 viously charged by a Federal grand jury for engaging in a fraudulent scheme in which RTS paid an
 authorized repair station for performing services on Kollsman, Inc., avionics equipment but then over-
 billed Kollsman. Couch would authorize these overcharges and receive half of the overpayment. Couch
 pleaded guilty to wire fraud for involvement in the scheme to defraud Kollsman, of New Hampshire.
 Couch has been suspended from Federal contracting as a result of the charges, and his co-defendants
 are awaiting trial. OIG investigated this case with the FBI and the Defense Criminal Investigative
 Service.



 L.A. MTA Subway Project: Welding Inspection
 Service Company Makes Plea Agreement                                                  August 30

 TWINING LABORATORIES OF SOUTHERN CALIFORNIA               agreed to pay $525,000 to settle a whistle-
 blower complaint that it made false claims about the qualifications of weld inspectors working on the
 Los Angeles Metropolitan Transportation Authority (MTA) Red Line subway project. The suit was filed
40
                                                                                                          August




under the Federal False Claims Act. William H. Benson,
Twining's former manager of inspection services, pleaded guilty
to Federal charges last year. No sentencing date has been set.
OIG investigated the case with the FBI and the Los Angeles
MTA.




                                      DOT Computer Security Program
   DOT has about 1,200 computer systems, including safety-sensitive air traffic control systems, Coast Guard search and rescue sys-
 tems, and financial systems that support the accounting and distribution of billions of dollars in Federal funds. The success of DOT pro-
 grams depends on the integrity, confidentiality, and availability of information systems. Over the last 3 years, we made numerous rec-
 ommendations to correct deficiencies and reduce vulnerabilities in DOT systems. DOT has taken or plans to take corrective actions,
 but much remains to be done, as evidenced by our work during the reporting period.

  The ongoing vulnerability of DOT’s computer systems was demonstrated by the case of a 15-year-old Connecticut boy who gained
 unauthorized access into a computer system at the Department’s Volpe Center in Cambridge, MA, in order to hack into the Air Mobility
 Command computer system at Scott Air Force Base. The youth was sentenced on June 8 to 2 years' probation, forfeiture of his com-
 puter, and ordered to pay $2,000 in restitution.

  With more than 150,000 publicly available web pages, maintaining web security and protecting privacy are ongoing challenges for the
 Department. "Code Red Worm" attacks, for example, caused service disruptions to DOT web sites earlier this year. In response to that
 and other hacking attacks on government computers, we issued a report on May 23 identifying 86 of 142 Department web servers as
 being vulnerable to hackers.

   On September 7, we issued an evaluation of the Department’s information security controls and procedures as part of the
 Department’s first-ever computer security report to the Office of Management and Budget, as required by the Government Information
 Security Reform Act (GISRA), passed in 2000. Our ongoing concerns included network connection points that were not secured and
 security incidents that were not adequately reported. We found that systems were not protected against unauthorized access or abus-
 es by insiders. In fact, only about 10 percent of DOT mission-critical systems were certified for adequate security. Critical infrastruc-
 ture systems were not properly identified or protected, and background checks were not completed on contractor employees working
 on critical systems. Finally, we found that web sites remained vulnerable to attacks due to constant changes in technology and web
 development. The Department is working to correct these problems.

   We also audited computer security of the Coast Guard’s operations systems center and finance center, as part of our GISRA review.
 We concluded that computer security at the finance center is effective to ensure secure operations of its financial systems. At the oper-
 ations systems center, however, we identified computer security weaknesses in personnel, physical, and technical security, including
 inadequate personnel background checks, lack of system access controls, unprotected password files, and unauthorized remote
 access to two critical systems. The Coast Guard has taken action to address identified problems.

  In addition, FAA has proposed to replace its aging analog networks with an integrated digital network for both air traffic control and
 administrative systems (see FAA Telecommunications Replacement Poses Risks, page 39). However, we found that FAA did not ade-
 quately evaluate the security impact for the proposed network integration. We believe the solution is to combine all air traffic control
 networks into one network but leave FAA’s administrative systems on separate networks. FAA concurred with our recommendation.




                                                                                                                                             41
          August            -   September




 CDL Examiner Pleads Guilty to
 Falsifying 248 Licenses                                                                  August 30

 NEAL CONAWAY, AN INDEPENDENT THIRD-PARTY CDL EXAMINER,                   pleaded guilty in U.S. District
 Court in Cincinnati, OH, to fraudulently representing to the State of Ohio that he had properly tested
 248 CDL applicants. Conaway gave the applicants an abbreviated test consisting of a group pretrip
 inspection of the truck and a short road test. A normal pretrip inspection and road test take nearly an
 hour to complete; Conaway’s applicants completed their test in about 10 minutes. The drivers have
 been notified that they will need to take a new CDL examination. OIG investigated this case with the
 Ohio State Police. No sentencing date has been set.



 Trucking Firm Placed in Pretrial Diversion Program                                   September 5

 POBOY SERVICES, INC., A COMMERCIAL TOW-TRUCK COMPANY                   in Mobile, AL, was placed in a
 pretrial diversion program by a U.S. District Court judge in Biloxi, MS, for conspiracy and falsification
 of Commercial Drivers License examinations. PoBoy, four of its employees and a CDL examiner for
 Mississippi’s Department of Public Safety were indicted in January 2001. CDL examiner Michael T.
 Schonewitz pleaded guilty June 4, along with his codefendants, to charges of giving the four PoBoy
 employees—Arthur A. Millar, Jr., Ronald W. Smiedala, Frederick F. Hooks, and Timothy W. Bolton—
 passing scores on the Federally required CDL examination. Bolton was also charged with fraudulently
 taking a vision test for Hooks, who had a visual impairment preventing him from legally obtaining a
 CDL. Under the agreement with the U.S. Attorney’s Office for the Southern District of Mississippi, the
 charges against PoBoy will be dropped if the company does not violate any local, state, or Federal laws
 during its 24-month probationary period and pays $14,000 to the Alabama Chapter of the National
 Safety Council. The other defendants were each fined $1,000 and sentenced to 2 years of probation on
 August 31. OIG investigated this case with the FBI, Mississippi State authorities, and the Alabama
 Highway Patrol. FMCSA provided technical assistance.




42
                                                                           September




Former Engineer Fined for
Obstructing Criminal Investigation                                                   September 12

LOUIS J. LONGO, FORMER RESIDENT ENGINEER               of the Massachusetts Highway Department, was
fined $3,000 and placed on 18 months’ probation in U.S. District Court in Boston after pleading guilty
to obstructing a 1998 criminal investigation. As the state official responsible for approving asphalt deliv-
eries to construction sites, Longo hindered a joint OIG-FBI investigation of Brox Industries, Inc., an
asphalt paving company suspected of falsely billing the government for "phantom" loads of asphalt. The
obstruction involved Longo’s presenting Brox with a false invoice for his services in an attempt to have
the company pay his legal fees associated with the inquiry. Brox officials thought they were being pres-
sured to pay Longo for his continued silence about the phantom loads of asphalt. Brox agreed in March
2001 to pay a $200,000 fine.



Company Indicted for 1999
Washington State Pipeline Rupture                                                    September 13

OLYMPIC PIPE LINE COMPANY, INC., Renton,            WA, was indicted in U.S. District Court in Seattle, WA,
on charges of violating the Hazardous Liquid Pipeline Safety Act and the Federal Water Pollution
Control Act. This is the first time individuals or corporations have been charged criminally for violations
of the Hazardous Liquid Pipeline Safety Act. The charges stemmed from the June 10, 1999, rupture of
the pipeline that resulted in three deaths. Olympic operates a 400-mile petroleum pipeline that trans-
ports gasoline, diesel, and jet fuel from refineries to distribution facilities throughout western
Washington and Portland, OR. As a result of the rupture, 236,000 gallons of unleaded gasoline were
released into Hannah Creek and Whatcom Creek, tributaries to Bellingham Bay and Puget Sound. Two
10-year-old boys and a young man died as a result of the release of gasoline and subsequent fire. Also
named in the indictment were Equilon Pipeline Company, LLC, which was responsible for the day-to-
day operation of the pipeline, and three current or former Olympic employees.




                                                                                                          43
          September




 Twelve Charged in Miami
 Airport Security Fraud Case                                                                  September 14

 TWELVE AIRPORT EMPLOYEES WERE CHARGED               with providing false information in order to obtain
 security badges at Miami International Airport, in Florida. The 12, all illegal aliens, face charges of using
 false Social Security cards and Alien Registration cards to obtain airport security identification badges
 necessary for admittance to secure areas, including the airport tarmac ramp and baggage areas. After
 pleading guilty to the charges, Eliana E. Minetti and Natalia E. Pereira were ordered deported on
 September 24 by a U.S. District Court judge in Miami. U.S. Customs Service officials detected the
 alleged falsifications when the aliens applied for badges to gain access to Customs secure areas. The
 women had been previously granted airport security identification badges. As of September 30, 11 peo-
 ple had been arrested. The Customs Service is assisting OIG in the investigation, which is ongoing.



 Readiness Issues for USCG
 Small Boat Search and Rescue                                                                 September 14

 AS DIRECTED BY THE CONFERENCE REPORT              on the Department’s FY 2001 appropriations law, we
 reviewed the readiness of the Coast Guard's Small Boat Search and Rescue (SAR) Program. We found
 the readiness of small boat SAR stations was affected by (1) staff shortages which require that boat crews
 work an average of 84 hours per week; (2) a significant decline in the number of experienced person-
 nel; (3) the lack of a formal training program for boatswain's mates, who make up the majority of SAR
 boat crews; (4) a high percentage of rescue boats found
 "Not Ready for Sea" during inspections; (5) the lack of a
 plan to replace the Coast Guard’s aging fleet of 41-foot
 SAR utility boats; and (6) the use of nonstandard boats,
 which are not required to undergo regularly scheduled,
 formal readiness inspections. The Coast Guard concurred
 with our recommendation to develop and implement a
 strategic plan for improving SAR program readiness.
                                                                 44-foot Coast Guard surf boat.




44
                                                                       September




Trucking Company Owner
Sentenced for Hours-of-Service Fraud                                                September 17

ROY E. CLENNIN, OWNER OF CLENNIN RANCH TRUCKING                 (CRT) was sentenced by a U.S. District
Court judge in Pueblo, CO, to 4 months' home confinement and 48 months' supervised release for
unlawful possession of firearms and falsifying driver logbooks. Clennin pleaded guilty in May 2001 to
felony charges of making false statements about driver’s logs and being a felon in possession of firearms.
A search of CRT's offices by FBI and OIG special agents uncovered 15 firearms in Clennin's posses-
sion. Since Clennin is a convicted felon, he cannot legally possess firearms. OIG investigated this case
with the FBI, with assistance from FMCSA.



Contractor Fined in Texas
Mass Transit Contract Fraud Case                                                    September 18

JAMES VICKERS, SENIOR VICE PRESIDENT             of Purcon Unlimited, was sentenced by a U.S. District
Court judge in Austin, TX, to 1 month in jail and payment of $32,000 in restitution following his June
2001 guilty plea on charges of conspiracy to illegally win a contract. Vickers conspired with an employ-
ee of the Capital Metropolitan Transit Authority (CMTA) of Austin, TX, to obtain a $13,000 contract
for developing a policies and procedures manual for CMTA. Vickers paid the CMTA employee to
ensure that he was the only bidder and then provided CMTA with a finished product that was a pla-
giarized copy of the Dallas Rapid Transit Authority Manual. OIG investigated this case with the FBI.



Trucking Company Fined in
Interstate-4 DBE Fraud Case                                                         September 20

J.D. MILLER & SONS, INC.,     and company vice president John Miller, of Thonotosassa, FL, were fined
by a U.S. District Court judge in Tampa, FL, for conspiring to violate Federal and state affirmative
action laws designed to promote disadvantaged business enterprises (DBEs). John Miller and J.D. Miller
& Sons pleaded guilty in May 2001 to charges of conspiring to defraud the United States by using false
documents and committing mail fraud to make it appear the company was a certified DBE when it was
not. As a result of the fraud, the company received $254,000 in FHWA-funded contracts to transport


                                                                                                        45
         September




 construction materials for the I-4 project in Hillsborough County, FL, between 1996 and 1998. The
 company was fined $30,000 and placed on 5 years’ probation. John Miller was sentenced to 60 months’
 probation and a $3,000 fine. Both defendants were barred from future Federal contract work. OIG
 investigated this case with the Florida OIG and the Florida Department of Law Enforcement.



 IG Testifies on Aviation Security                                                 September 20

 FOLLOWING THE TRAGIC EVENTS OF SEPTEMBER 11,            the Inspector General testified three times on
 Capitol Hill regarding the governance, organization, and delivery of aviation security—on September
 20 before a joint House-Senate Transportation Appropriations Subcommittee hearing; on September
 21 before a House Transportation and Infrastructure Aviation Subcommittee hearing; and on
 September 25 before a joint hearing of the Senate Committee on Governmental Affairs and the
 Subcommittee on Oversight of Government Management, Restructuring, and the District of Columbia.


 Given the scope and complexity of the security challenge, coupled with a longstanding history of
 problems associated with the aviation security program, the
 Inspector General recommended that consideration be given to
 vesting this responsibility in one central Federal organization or
 not-for-profit Federal corporation. Based on OIG's recent
 reports in this area, the Inspector General also identified
 changes needed to supplement and enhance current security
 programs, especially in the areas of security of checked baggage,
 screening checkpoints, cargo security, airport access controls,
 and airport identification media.                                  Baggage-screening machine.




 DOT Use of Government Credit Cards                                                 September 24

 OUR REVIEW OF 785 TRANSACTIONS            totaling $1.2 million found that purchases made using DOT
 credit cards and convenience checks were, in general, reasonable, valid, and received by the Department.
 However, internal controls were weak for verifying purchases, identifying purchases that were split to
 avoid credit card limits, and performing reviews of card use within FAA. There were three instances of


46
                                                                          September




fraud (one because the card number was stolen) and violations of DOT policy and internal control pro-
cedures. DOT and FAA agreed with our recommendations to issue (1) memos to cardholders and offi-
cials regarding credit card policy, prohibitions against split purchases, and periodic follow-up reviews of
purchases; and (2) guidance about possible disciplinary actions for card policy violations.



Status of FHWA Inactive Obligations                                                   September 24

OUR AUDIT OF FHWA’S RECORDED OBLIGATIONS              identified about 25,000 obligations, totaling about
$2.6 billion, that had been inactive for 18 months. As a result of our audit, FHWA and the states are
closing $238 million in obligations that no longer represent valid financial liabilities and either using the
funds for other valid transportation projects or returning them to the U.S. Treasury General Fund.



Church Pastor Indicted as
Part of Public Corruption Case                                                        September 25

LAWRENCE W. WRIGHT, PASTOR           of New Mount Olive Baptist Church, in Wilmington, DE, was
indicted in U.S. District Court in Wilmington on multiple counts of interstate transportation of stolen
property, bribery, and other charges related to the misuse of Federal funds. Wright allegedly took
$150,000 of Delaware Department of Transportation suburban street funds authorized for distribution
to his church. According to the indictment, he used $60,000 as bribes to a State of Delaware
Representative, who has since died, $80,000 for personal purposes, and $10,000 for the church. OIG
investigated this case with the FBI.



Further Delays Likely in
OSHA Standards for Flight Attendants                                                  September 26

FAA HAS HAD AUTHORITY SINCE 1975             for occupational safety and health standards for crew aboard
aircraft but has not issued any standards to address workplace hazards. Since nothing has been done for
26 years, we have no confidence that industry standards will be issued in the near future to address occu-
pational hazards. Therefore we recommended that FAA and the U.S. Department of Labor’s


                                                                                                           47
          September




 Occupational Safety and Health Administration (OSHA) work together to establish milestones for
 addressing occupational health concerns identified in a December 2000 joint report. In addition, FAA
 should resume its proposed rulemaking on an injury and illness recordkeeping and reporting standard.
 In response to our recommendations, FAA has requested OSHA to reconvene the joint team to address
 workplace hazards aboard aircraft.



 Trucking Owners Sentenced in
 Hours-of-Service Case                                                                 September 26

 DAVID DELONG, FORMER PRESIDENT,             Faye DeLong, vice president, and David Kistler and Grandson,
 Inc., a commercial trucking company, were sentenced in U.S. District Court in Philadelphia, PA, for
 directing their drivers to falsify their logbooks to hide the fact they were driving in violation of Federal
 hours-of-service regulations. David DeLong was fined $6,000 and ordered to serve 6 months in jail.
 Faye DeLong was fined $5,000 and sentenced to 6 months’ home confinement. As a condition of
 supervised release, both DeLongs were prohibited from working in the trucking industry for 3 years.
 David Kistler and Grandson, Inc., was fined $40,000.



 Development of National Advanced Driving Simulator
 Resulted in Cost Increases, Schedule Delays                                          September 28

 NHTSA DID NOT EFFECTIVELY CONTROL           the costs of the driving simulator, which grew to $80.8 mil-
 lion, more than twice the original estimate of $36.5 million. NHTSA also did not follow Congressional
 directives for obtaining one-third of the simulator's cost from non-DOT sources and establishing the
 Federal Government's fee for using the simulator. We recommended that NHTSA (1) obtain clarifica-
 tion from the House and Senate Committees on Appropriations about the Government's fee for using
 the simulator; (2) include in its annual budget request the potential costs and benefits of simulator
 research, actual costs and benefits of the prior year’s research, and price structure for determining the
 simulator fee paid by DOT and non-DOT simulator customers; and (3) work with the University of
 Iowa to ensure that the simulator’s quality assurance standards are certified or based on universally rec-
 ognized international standards. NHTSA has not responded to the first two recommendations above,
 but agreed with our recommendation for certifying quality standards.


48
           COMPLETED OIG REPORTS, APRIL 1, 2001 – SEPTEMBER 30, 2001
                                                                                                        (Dollars in Thousands)

                                                                                                                  Estimated Amounts *


                  Type of Review                           Number of    Number of    Questioned                         Funds to Be Put
                                                            Reports  Recommendations   Costs ✝                           to Better Use
Internal Audits
Program/Functional                                              11                     57                   $     0          $        0
Chief Financial Officer
Financial Statements                                             1                      3                   $     0          $238,000
Other OIG Internal Reports                                      13                     41                   $     0          $409,000
TOTAL INTERNAL AUDITS AND REPORTS                               25                    101                   $     0          $647,000
Grant Audits
Audits of Grantee Under
Single Audit Act                                                29                    55                   $7,893           $      0
TOTAL                                                           54                   156                   $7,893           $647,000

* The dollars shown are the amounts reported to management. The actual amounts may change during final resolution.
✝ There were no recommendations with unsupported costs.
Note: Department of Transportation programs and operations are primarily carried out by the Department’s own personnel and recipients of Federal grants. Audits
by DOT’s Office of Inspector General, as a result, fall into 3 categories: (1) internal audits of Departmental programs and operations; (2) internal reviews of
Departmental progams and operations; and (3) audits of grant recipients. The table shows OIG’s results in the three categories for the 6 months covered by this report.




           M A N A G E M E N T D E C I S I O N S R E G A R D I N G O I G R E C O M M E N D AT I O N S

                                                                                                       (Dollars in Thousands)

                         Description                              Number of             Number of                Questioned and                 Funds to Be Put
                                                                   Reports           Recommendations            Unsupported Costs*               to Better Use
Unresolved as of April 1, 2001                                       33                    80                         $2,078                       $ 49,702
Audits with findings during current period                           42                   156                         $7,893                        $647,000
               Total to Be Resolved                                  75                   236                         $9,971                        $696,702
Management Decisions
Audits Prior Period ✝                                                  19                       44                        $1,582                     $      0
Audits Current Period✝                                                 13                       47                        $ 310                      $647,000
               Total Resolved                                          32                       91                        $1,892                     $647,000
Unresolved as of September 30, 2001‡                                   45                      145                        $8,078                     $ 49,702
Aging of Unresolved Audits
 Less than 6 mos. old                                                  30                     109                         $7,583                     $      0
 6 mos. – 1 year                                                        8                      23                         $ 495                      $ 48,000
 1 year – 18 mos.                                                       3                       5                         $    0                     $      0
 18 mos. – 2 years                                                      2                       2                         $    0                     $      0
 Over 2 years old                                                       2                       6                         $    0                     $ 1,702
TOTAL                                                                  45                     145                         $8,078                     $ 49,702
* Rounding of dollars may affect totals.
✝ Includes some reports and recommendations where costs were both allowed and disallowed.
‡ Considered unresolved if management decisions have not been made on all report recommendations.




                                                                                                                                                                     49
 OIG REPORTS WITH RECOMMENDATIONS THAT QUESTIONED COSTS
 (Dollars in Thousands)

                                                                          Number of                Number of          Questioned
 Reports                                                                   Reports              Recommendations         Costs*

 A. For which no management decision had                                       14                     15                 $2,078
    been made by the start of the reporting period

 B. Which were issued during the reporting period                                  8                  14                 $7,893

     TOTAL A+B                                                                 22                     29                 $9,971

 C. For which a management decision was made                                   12                     13                 $1,892
    during the reporting period

     (i) dollar value of disallowed costs                                      11 ✝                   12 ‡               $2,008

     (ii) dollar value of costs not disallowed                                     2✝                  2‡                $   12

 D. For which no management decision had been                                  10                     16                 $8,078
    made by the end of the reporting period

 *   There were no recommendations with unsupported costs.
 ✝ Includes reports where costs were both allowed and disallowed.
 ‡ Includes recommendations where costs were both allowed and disallowed.




 OIG REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
 (Dollars in Thousands)

                                                                                        Number of      Number of          Dollar
 Reports                                                                                 Reports    Recommendations       Value

 A. For which no management decision had been made by the start of the                      2                2           $ 49,702
    reporting period

 B. Which were issued during the reporting period                                           2                2           $647,000

     TOTAL A+B                                                                              4                4           $696,702

 C. For which a management decision was made during the reporting period                    2                2           $647,000

      (i) dollar value of recommendations that were agreed to by management                 2                2           $647,000

      (ii) dollar value of recommendations that were not agreed to by management           0                 0           $        0

 D. For which no management decision had been made by the end of the                        2                2           $ 49,702
    reporting period




50
                                           OIG REPORTS RECOMMENDING CHANGES

                                            F O R S A F E T Y, E C O N O M Y, O R E F F I C I E N C Y

                                                                                            Number of         Number of
Reports                                                                                      Reports       Recommendations

A. For which no management decision had been made by the start of the reporting period            26               63

B. Which were issued during the reporting period                                                  41              140

    TOTAL A+B                                                                                     67              203

C. For which a management decision was made during the reporting period                           25*              62

D. For which no management decision had been made by the end of the reporting period              44*             141

*   Includes reports where management both made and did not make a decision on recommendations.




                               S TAT U S O F U N R E S O LV E D R E C O M M E N D AT I O N S

                                                                                   OVER 6 MONTHS OLD

           CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 1998 – MARCH 31, 1999
Deployment of Explosives Detection Systems        AV-1999-001    10/05/98    Working with FAA to resolve all open issues


          CITED IN SEMIANNUAL REPORT FOR APRIL 1, 1999 – SEPTEMBER 30, 1999
Motor Carrier Safety Program                      TR-1999-091    04/26/99    Working with FMCSA to resolve all open issues


           CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 1999 – MARCH 31, 2000
Cost Allocations by the Transportation            MA-2000-015    11/05/99    Working with TASC to resolve all open issues
Administrative Service Center
Airport Access Control                            AV-2000-017    11/18/99    Working with FAA to resolve all open issues


          CITED IN SEMIANNUAL REPORT FOR APRIL 1, 2000 – SEPTEMBER 30, 2000
Contract Towers: Observations on FAA’s Study      AV-2000-079    04/12/00    Awaiting additional information from FAA
of Expanding the Program
Survey of the Federal Aviation Administration’s   AV-2000-110    08/29/00    Working with FAA to resolve all open issues
Integrated Product Development System
2000 Assessment of Amtrak’s Financial             CR-2000-121    09/19/00    Working with Amtrak to resolve all open issues
Performance and Requirements                                                 related to capital spending




                                                                                                                              51
              CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 2000 – MARCH 31, 2001
 October 2000 Finance Plan for the Central        IN-2001-009      11/29/00    Working with FHWA to resolve all open issues
 Artery/Tunnel Project, Boston, MA
 Airport Noise Compatibility Program              AV-2001-012      12/14/00    Awaiting aditional information from FAA
 Castle Joint Powers Authority, CA                QC–2001–022      02/14/01    Working with grantee to resolve issues
 City of Galveston, TX                            QC–2001–028      02/16/01    Working with grantee to resolve issues
 Gary Public Transportation Corporation, IN       QC–2001–027      02/16/01    Working with grantee to resolve issues
 Miami-Dade County Aviation Department, FL        QC–2001–031      02/22/01    Working with grantee to resolve issues
 Beaverhead County, MT                            QC–2001–042      03/08/01    Working with grantee to resolve issues
 Efforts to Develop and Deploy the Standard       AV–2001–048      03/30/01    Working with FAA to resolve all open issues
 Terminal Automation Replacement System




 OFFICE OF INSPECTOR GENERAL REPORTS

 April 1, 2001 - September 30, 2001


 F E D E R A L AV I AT I O N A D M I N I S T R AT I O N
 Internal Audits: Program/Functional (4 reports)

     Report          Date                              Title                                        Focus of Report/
                                                                                                   Recommendations

 AV–2001–064       06/15/2001    Compensation Issues Concerning Air Traffic            Evaluate employee compensation
                                 Managers, Supervisors, and Specialists

 AV–2001–066       06/26/2001    Despite Significant Management Focus, Further         Technology issues and management
                                 Actions Are Needed to Reduce Runway Incursions        factors constrain progress

 FI–2001–076       08/21/2001    Replacement of FAA Telecommunications Systems         Network sharing poses risk to air traffic
                                                                                       control systems

 AV–2001–102       09/26/2001    Further Delays in Implementing Occupational           Address occupational health hazards faced
                                 Safety and Health Standards for Flight Attendants     by flight attendants and crew
                                 Are Likely



 Other OIG Internal Reports (5 reports)

 CR–2001–050       04/03/2001    Flight Delays and Cancellations                       Remedies needed to address flight delays
                                                                                       and cancellations

 CR–2001–060       06/11/2001    Actions to Improve the Performance of the             Status of DOT and OIG commitments
                                 National Aviation System

 AV–2001–067       07/03/2001    Status Report on the Standard Terminal                Concerns continue over deployment of
                                 Automation Replacement System                         STARS

 AV–2001–073       07/26/2001    Observations on the Automated Surface                 Upgrades needed in ASOS
                                 Observing Systems (ASOS)

 CR–2001–075       08/17/2001    Actions to Enhance Capacity and Reduce Delays         Although progress has been made,
                                 and Cancellations                                     various actions still needed

52
                                  OFFICE OF INSPECTOR GENERAL REPORTS

                                                   April 1, 2001 - September 30, 2001
Grant Audits: Audits of Grantee Under Single Audit Act (9 reports)
   Report       Date                             Title                                  Focus of Report/
                                                                                       Recommendations

QC–2001–056   04/26/2001   Port of Seattle, WA                               Improve grantee oversight

QC–2001–068   07/05/2001   Clark County Department of Aviation, NV           Improve grantee oversight

QC–2001–077   08/23/2001   City of Roswell, NM                               Improve grantee oversight

QC–2001–079   08/23/2001   City of Des Moines, IA                            $423,084 questioned

QC–2001–078   08/23/2001   City of Fargo, ND                                 $57,752 questioned

QC–2001–082   08/27/2001   Memphis Shelby County Airport Authority, TN       Improve grantee oversight

QC–2001–085   08/28/2001   Monterey Peninsula Airport District, CA           Improve grantee oversight

QC–2001–086   08/28/2001   Lancaster Airport Authority, PA                   Improve grantee oversight

QC–2001–092   09/13/2001   City of Fallon, NV                                Improve grantee oversight



F E D E R A L R A I L R O A D A D M I N I S T R AT I O N
Other OIG Internal Reports (2 reports)


FI–2001–057   05/03/2001   E-Mail System Replacement Contracts               Flawed criterion used on noncompetitive
                                                                             contracts

CR–2001–065   06/21/2001   Amtrak’s Financial Performance and Requirements   Operating self-sufficiency in jeopardy


N AT I O N A L H I G H W AY T R A F F I C S A F E T Y A D M I N I S T R AT I O N
Internal Audits: Program/Functional (1 report)


IN–2001–104   09/27/2001   Development of the National Advanced Driving      Control costs and clarify Congressional
                           Simulator Resulted in Substantial Cost Increase   directives
                           and Schedule Delays



U N I T E D S TAT E S C O A S T G U A R D
Internal Audits: Program/Functional (3 reports)


FI–2001–088   09/06/2001   Finance Center—Computer Security and Controls     Improve computer security and controls

FI–2001–089   09/07/2001   Operations Systems Center—Computer Security       Enhanced intrusion detection
                           and Controls                                      needed

MH–2001–094   09/14/2001   Small Boat Station Search and Rescue Program      Implement strategies to improve program
                                                                             readiness



                                                                                                                       53
 OFFICE OF INSPECTOR GENERAL REPORTS

 April 1, 2001 - September 30, 2001

F E D E R A L H I G H W AY A D M I N I S T R AT I O N
Internal Audits: Chief Financial Officer Financial Statement                                            (1 report)
     Report     Date                              Title                                  Focus of Report/
                                                                                        Recommendations

FI–2001–097   09/24/2001   Inactive Obligations                               Put $238,000,000 to better use


Other OIG Internal Reports (1 report)

IN–2001–058   08/10/2001   Status of Issues Related to the Woodrow Wilson     Revise the final Finance Plan to update
                           Bridge Corridor Reconstruction Project             cost estimates, identify funding, eliminate
                                                                              phasing, and comply with Congressional
                                                                              direction


Grant Audits: Audits of Grantee Under Single Audit Act (5 reports)

QC–2001–049   04/02/2001   State of Louisiana                                 $1,696,940 questioned

QC–2001–052   04/11/2001   State of Indiana                                   Improve grantee oversight

QC–2001–053   04/17/2001   Government of the United States Virgin Islands     $4,140,627 questioned

QC–2001–054   04/23/2001   Commonwealth of Massachusetts                      $1,086,982 questioned

QC–2001–099   09/26/2001   Wyoming Department of Transportation, Cheyenne     Improve grantee oversight


F E D E R A L T R A N S I T A D M I N I S T R AT I O N
Other OIG Internal Reports (1 report)

IN–2001–051   04/04/2001   Seattle Central Link Light Rail Project            Put $409,000,000 to better use



Grant Audits: Audits of Grantee Under Single Audit Act (15 reports)

QC–2001–055   04/23/2001   Greater Cleveland Regional Transit Authority, OH   $309,971 questioned

QC–2001–063   06/05/2001   Tri-County Metropolitan Transportation, OR         Improve grantee oversight

QC–2001–070   07/19/2001   Regional Transit Authority, New Orleans, LA        $65,056 questioned

QC–2001–071   07/19/2001   Fort Worth Transportation Authority, TX            Improve grantee oversight

QC–2001–072   07/20/2001   VIA Metropolitan Transit, San Antonio, TX          Improve grantee oversight

QC–2001–080   08/23/2001   New York City Transit Authority, NY                Improve grantee oversight

QC–2001–081   08/27/2001   City of Rutland, VT                                Improve grantee oversight

QC–2001–083   08/27/2001   Miami Valley Regional Transit Authority,           Improve grantee oversight
                           Dayton, OH

QC–2001–084   08/27/2001   Central Ohio Transit Authority                     Improve grantee oversight

54
                                  OFFICE OF INSPECTOR GENERAL REPORTS

                                                   April 1, 2001 - September 30, 2001
   Report       Date                             Title                                   Focus of Report/
                                                                                        Recommendations

QC–2001–087   08/30/2001   Greenville Transit Authority, SC                   Improve grantee oversight

QC–2001–091   09/13/2001   City of Detroit Transportation Fund, MI            Improve grantee oversight

QC–2001–093   09/13/2001   Portage Area Regional Transportation Authority,
                           OH                                                 Improve grantee oversight

QC–2001–098   09/26/2001   Dallas Area Rapid Transit, TX                      $112,500 questioned

QC–2001–100   09/26/2001   City of El Paso, TX                                Improve grantee oversight

QC–2001–101   09/26/2001   Jacksonville Transportation Authority, FL          Improve grantee oversight



F E D E R A L M O T O R C A R R I E R S A F E T Y A D M I N I S T R AT I O N
Other OIG Internal Reports (2 reports)


MH–2001–059   05/08/2001   Interim Report on Status of Implementing the       Status of commercial vehicle inspections
                           North American Free Trade Agreement’s              at southern border
                           Cross-Border Trucking Provisions

MH–2001–096   09/21/2001   Motor Carrier Safety at the U.S.-Mexico Border     Implement motor carrier safety
                                                                              improvements




O F F I C E O F T H E S E C R E TA RY O F T R A N S P O RTAT I O N
Internal Audits: Program/Functional (3 reports)

FI–2001–074   08/07/2001   Implementing a New Financial Management           Deficiencies interrupt implementation
                           System                                            schedule

FI–2001–090   09/07/2001   Information Security Program                      Actions needed to correct deficiencies and
                                                                             reduce vulnerabilities

FI–2001–095   09/24/2001   Use of Government Credit Cards                    Need for better controls




Other OIG Internal Reports                       (2 reports)


FI–2001–061   05/23/2001   Computer Security Over Web Sites                   Ensure web servers are secure

PT–2001–062   06/01/2001   The Department's 2000 Performance Report/          Progress and plans reasonably presented
                           2002 Performance Plan




                                                                                                                          55
 OFFICE OF INSPECTOR GENERAL
 CONGRESSIONAL TESTIMONIES
 April 1, 2001–September 30, 2001
 Federal Aviation Administration
 Control No.     Date                            Subject                                        Before

 CC–2001–171   05/03/2001   Actions to Improve the Performance of the          Committee on Appropriations,
                            National Aviation System                           Subcommittee on Transportation,
                                                                               U.S. House of Representatives

 CC–2001–211   06/13/2001   Status Report on the Standard Terminal             Committee on Transportation and
                            Automation Replacement System                      Infrastructure, Subcommittee on Aviation,
                                                                               U.S. House of Representatives

 CC–2001–217   06/20/2001   Status Report on Airline Customer Service          Committee on Transportation and
                                                                               Infrastructure, Subcommittee on Aviation,
                                                                               U.S. House of Representatives

 CC–2001–224   06/26/2001   Further Actions Are Needed to Reduce               Committee on Transportation and
                            Runway Incursions                                  Infrastructure, Subcommittee on
                                                                               Aviation, U.S. House of Representatives

 CC–2001–260   08/02/2001   Update II: Actions to Enhance Capacity and         Committee on Appropriations,
                            Reduce Delays and Cancellations                    Subcommittee on Transportation,
                                                                               U.S. House of Representatives

 CC–2001–300   09/13/2001   Status Report on the Standard Terminal             Committee on Transportation and
                            Automation Replacement System                      Infrastructure, Subcommittee on Aviation,
                                                                               U.S. House of Representatives

 CC–2001–308   09/20/2001   Aviation Security in the United States—Testimony   Joint House-Senate Committee on
                            Before the Joint House-Senate Transportation       Appropriations, Subcommittee on
                            Appropriations Subcommittee                        Transportation

 CC–2001–306   09/21/2001   Aviation Security in the United States             Committee on Transportation and
                                                                               Infrastructure, Subcommittee on Aviation,
                                                                               U.S. House of Representatives

 CC–2001–313   09/25/2001   Actions Needed to Improve Aviation Security        Committee on Governmental Affairs,
                                                                               Subcommittee on Oversight of Government
                                                                               Management, Restructuring, and the
                                                                               District of Columbia, U.S. Senate


 Amtrak

CC–2001–252    07/25/2001   Amtrak's Financial Performance and Requirements    Committee on Transportation and
                                                                               Infrastructure, Subcommittee on Railroads,
                                                                               U.S. House of Representatives


 U.S. Coast Guard

CC–2001–184    06/13/2001   U.S. Coast Guard Fiscal Year 2002 Budget           Committee on Appropriations,
                            Request for Modernization                          Subcommittee on Transportation, U.S.
                                                                               Senate




56
                                                                  OFFICE OF INSPECTOR GENERAL
                                                                   CONGRESSIONAL TESTIMONIES
                                                           April 1, 2001–September 30, 2001
Federal Motor Carrier Safety Administration

CC–2001–244   07/18/2001   Motor Carrier Safety at the U.S.-Mexico Border                            Committee on Commerce, Science, and
                                                                                                     Transportation, U.S. Senate

CC–2001–244   07/18/2001   Motor Carrier Safety at the U.S.-Mexico Border                            Committee on Transportation and
                                                                                                     Infrastructure, Subcommittee on Highways
                                                                                                     and Transit, U.S. House of Representatives




                              Application of Audit Resources
                              By Operating Administration,
                              April 1, 2001 — September 30, 2001

                                                                                      RSPA
                                                                                       1%
                                          NHTSA             OST
                                            3%              12%
                                    FTA
                                     5%
                                                                                FAA
                                                                                40%


                                                  USCG
                                                   16%



                                           FRA
                                            4%                    FHWA                   FMCSA
                                                                   13%                     5%

                              May not equal 100 percent due to rounding.

                              Note: Resources shown for OST include time spent performing audits of the DOT
                              consolidated financial statement (which includes all Operating Administrations),
                              the use of government credit cards, airline mergers and customer service, customer
                              access to lowest airfares, and the DOT information security program. Time expended
                              on the Maritime Administration, the Bureau of Transportation Statistics, and the
                              St. Lawrence Seaway Development Corporation was less than 1 percent.




                                                                                                                                              57
     The Inspector General Act requires explanations of        The Inspector General Act requires this report to
     reasons for significant revisions to management deci-     describe any significant management decisions with
     sions made during the reporting period. OIG follows       which the OIG disagrees.     At the close of this
     up on audits reported in earlier semiannual reports.      reporting period, there were no significant manage-
     During this reporting period, there were no significant   ment decisions with which OIG disagreed.
     revisions of Departmental management decisions
     reported to OIG.




 Section 803 (c)(3) of the Federal Financial Management Improvement Act of 1996 (Act) requires that
 if the head of an agency determines the agency's financial management systems do not substantially
 comply with the Act, a remediation plan must be developed, in consultation with the Office of
 Management and Budget (OMB), that describes the resources, remedies, and milestones for achieving
 substantial compliance. For the past 2 years, DOT reported it would be in substantial compliance with
 the Act by June 30, 2001, when DOT's new financial management system (Delphi) was planned to be
 fully operational and implemented throughout DOT.


 On August 7, 2001, OIG reported that Delphi was not compliant with the Act and contained materi-
 al internal control weaknesses. Specifically, Delphi did not account appropriately for prior-year funds
 automatically; prevent agencies from changing each other's financial data; generate reliable financial
 statements and other financial reports; adjust obligations electronically recorded from other financial
 systems; meet managerial cost-accounting standards; interface electronically with other internal and
 external systems; and use a Federal-approved data encryption. The primary causes for these failures to
 comply were poor transitioning procedures and software deficiencies with the commercial off-the-shelf
 software product.


 As of September 30, 2001, DOT's major agencies had not yet implemented Delphi. As required by the
 Act, we recommended that the DOT Chief Financial Officer prepare a revised remediation plan that
 describes the resources, remedies, and milestones for achieving substantial compliance. DOT agreed to
 submit a revised plan to OMB and currently estimates that Delphi will be substantially compliant with
 the Act by December 2002.




58
                                                      P R O F I L E O F P E N D I N G I N V E S T I G AT I O N S
                                                                    April 1, 2001– September 30, 2001

                                                                                     Types of Cases
                                           Number         Contract/   Employee     Aviation Motor Carrier         HazMat         Other
     Operating Administration              of Cases        Grant       Integrity    Safety     Safety
                                                           Fraud
U.S. Coast Guard                                 47            10        13           5               0              12             7
Federal Aviation Administration              214               24        38         121               0              12            19
Federal Highway Administration               101               79         5           0               0                0            9
Federal Railroad Administration                   8             3         0           0               0                5            0
Federal Transit Administration                   20            20         0           0               0                0            0
Maritime Administration                           5             3         1           0               0                0            1
Federal Motor Carrier Safety                     86             0         0           0             67               19             8
 Administration
Office of the Secretary                           6             2         1           0               0                0            3
Research and Special Programs                    28             2         0           0               0              24             2
 Administration
National Highway Traffic Safety                  12             0         5           0               0                0            7
 Administration
Other Agencies                                    2             0         1           0               0                0            1

TOTALS                                      529               143        64         126             67               72           57
Percent of Total*                           100%               27%       12%         24%            13%              14%          11%
*Percentages total more than 100 due to rounding.




Application of Investigative Resources                                        Investigative Resource Allocation by
By Operating Administration,                                                  Priority Area,
April 1, 2001 — September 30, 2001                                            April 1, 2001 — September 30, 2001

                                                      Other
                                                       2%
           USCG
            5%             OST
                           12%             FAA                                                                   Aviation
   NHTSA                                   33%                                                 All Other
                                                                                                              Safety/Security
     1%                                                                                          22%
                                                                                                                   20%
     FTA
      2%
                                                                                           HazMat
     FRA                                                                                    13%
     1%                                                                                                         Contract/Grant
                   FMCSA                                                                                            Fraud
                    19%                                                                             Motor            30%
                                                                                                    Carrier
                                    FHWA
                                                                                                    Safety
                                     25%
                                                                                                     15%




                                                                                                                                         59
 THE SIX MONTHS COVERED BY THIS REPORT                           Administrative Actions Taken
                                                                April 1, 2001 - September 30, 2001
 OPENED WITH A PENDING CASELOAD OF 505.
 From April 1 through September 30, 2001, 137     Employee suspensions                     2

 cases were opened and 109 were closed, leaving   Employee terminations                    2
 a pending caseload of 533. During the period,    Resignations/retirements                 2
 135 cases were referred for prosecution, 143
                                                  Debarments/suspensions                  13
 cases were accepted for prosecution, and 18
                                                  Other corrective action                 13
 cases were declined. As of September 30, 47
 cases were pending before prosecutors.




                                                   OIG investigations in this reporting period
                                                  spurred $15,158,526 in recoveries, including fines,
                                                  restitution, civil judgments or settlements, and
                                                  Federal and state recoveries. Federal recoveries go
                                                  to the U.S. Treasury. State recoveries are retained
                                                  by the states.



                                                                     Judicial Actions Taken
                                                                April 1, 2001 - September 30, 2001

                                                  Indictments                                  122

                                                  Convictions                                  101

                                                  Years sentenced                              33
                                                  Years probation                              143
                                                  Years supervised release                     49

                                                  Hours of community service               1,254

                                                  Fines                              $ 1,125,675

                                                  Restitutions/civil judgments       $ 3,223,699

                                                  Federal recoveries                 $10,658,757

                                                  State recoveries                   $   150,395

                                                  TOTAL                              $15,158,526




60
                                                                             PCIE         Awards




THE PRESIDENT’S COUNCIL ON INTEGRITY AND EFFICIENCY (PCIE)                                was established
by executive order in 1981 as a body to oversee the Inspector Generals’ responses to government-wide
issues of concern to the IG community. The PCIE addresses issues of integrity, economy, and effectiveness
that transcend individual Government agencies; increases the professionalism and effectiveness of IG per-
sonnel throughout the Government; and coordinates IG responses to Congressional requests.

The PCIE comprises all Presidentially appointed Inspectors General, as well as officials from the Office of
Management and Budget, Federal Bureau of Investigation, Office of Personnel Management, Office of
Government Ethics, and Office of Special Counsel.

On October 17, members of the DOT OIG team were honored by their peers at an awards ceremony in
Washington, D.C. Their names and accomplishments follow.



                       AWARD FOR EXCELLENCE                             —   AUDIT

              A I R T R A F F I C C O N T R O L C O M P E N S AT I O N I S S U E S T E A M
                  Daniel R. Raville, Robert A. Romich, Francis E. Danielski

                      Citation: For work in leading to a more equitable pay system
                                         for air traffic controllers.




                       AWARD FOR EXCELLENCE                             —   AUDIT

                A I R L I N E C U S T O M E R S E RV I C E C O M M I T M E N T T E A M
        Robin K. Hunt, Lester D. Girdlestone, David W. Brown, Donald E. Emery,
         Todd O. Kath, Thomas K. Lehrich, Shirley H. Murphy, James M. Nelson,
             Nelda Z. Smith, Paul M. Streit, Scott K. Macey, Anne V. Longtin,
              Gloria J. Echols, Carlton H. Hamilton, Deborah A. Kloppenburg,
              Jeffrey Mortensen, Pavel P. Nagulko, Petra Rose, Lisa H. Stone,
                             Sharon R. Trodden, Susan Zimmerman

                         Citation: For outstanding dedication and contributions
                                   to improve airline customer service.
                                                                                                         61
                      AWARD FOR EXCELLENCE                           —       AUDIT

                  N O RT H A M E R I C A N F R E E T R A D E A G R E E M E N T ’ S
                          CROSS-BORDER TRUCKING TEAM
         Barbara M. Cobble, Gary L. Alvino, James W. Bess, Shirley H. Murphy,
            Charmaine E. Newman, William M. Obinger, Sara H. VanOsdol,
              Christopher R. Smith, William E. Savage, Jeffrey S. Wilson

                   Citation: For outstanding work in reviewing implementation of the
                      North American Free Trade Agreement’s trucking provisions.




       AWARD FOR EXCELLENCE                         —     EMPLOYEE PROTECTION

     C O A S T G U A R D W H I S T L E B L O W E R R E P R I S A L I N V E S T I G AT I O N T E A M
            David H. Gamble, Rick Beitel, John Davenport, Jim Muhlenkamp

             Citation: For excellence in conducting a priority, time-sensitive investigation of
                       whistleblower reprisal taken against a Coast Guard officer.




                AWARD FOR EXCELLENCE                           —     E VA L U AT I O N

             A I R L I N E F L I G H T D E L AY S A N D C A N C E L L AT I O N S T E A M
        Mark R. Dayton, Darren L. Murphy, Jeffrey Mortensen, Earl G. Kindley,
         Michele O. Paratte, Petra Rose, Randy D. Rohwer, Michael P. Dunn,
         Deborah A. Kloppenburg, Susan M. Zimmerman, Sandra M. DeLost

                          Citation: For groundbreaking work on flight delays,
                                   flight cancellations, and their causes.




62
        AWARD FOR EXCELLENCE                        —     E VA L U AT I O N


      S E AT T L E C E N T R A L L I N K L I G H T R A I L P R O J E C T T E A M
Leslie A. Smith, Raymond A. Larpenteur, Kyle V. Miller, Sarah E. Batipps,
                  Diane R. Brattain, Oleg Michalowskij

               Citation: For efforts leading to improved oversight of the
                        Seattle Central Link Light Rail Project.




      AWARD FOR EXCELLENCE                        —
                                           MANAGEMENT
          A N D A D M I N I S T R AT I V E S E RV I C E

         CONTRACT AND GRANT FRAUD TRAINING TEAM
  Harry Schaefer, LaVan Griffith, Howard W. Cox (Postal Service OIG)

                Citation: For excellence in managing U.S. DOT OIG’s
           Contract and Grant Fraud Initiative and developing and delivering
          a customized Contract and Procurement Fraud Training Course and
                  innovative CD-ROM in furtherance of the initiative.




    AWARD FOR EXCELLENCE                       —     M U LT I D I S C I P L I N E

             C O M P U T E R S E C U R I T Y E VA L U AT I O N T E A M
         Rebecca C. Leng, Nathan J. Custer, Ping Zhong Sun,
Bronwyn Gallagher, Cynthia F. Tims, William C. Coker, Mitchell N. Balakit

          Citation: For superior performance in reviewing the Department of
                     Transportation’s network computer security.




                                                                                    63
 ☎     Contacts


 INSPECTOR GENERAL

 Kenneth M. Mead . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-1959

 DEPUTY INSPECTOR GENERAL

 Todd J. Zinser . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-6767

 A S S I S TA N T I N S P E C TO R G E N E R A L F O R AU D I T I N G

 Alexis M. Stefani . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-1992

 A C T I N G A S S I S TA N T I N S P E C TO R G E N E R A L F O R I N V E S T I G AT I O N S

 David H. Gamble . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-1967

 SENIOR COUNSEL

 Roger P. Williams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-8751

 S E N I O R C O U N S E L F O R L E G I S L AT I V E A N D E X T E R N A L A F FA I R S

 Brian A. Dettelbach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-2083

 P U B L I C A F FA I R S O F F I C E R

 David Barnes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-6312

 D E P U T Y A S S I S TA N T I N S P E C T O R G E N E R A L F O R AV I AT I O N

 David A. Dobbs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-0500

 D E P U T Y A S S I S TA N T I N S P E C TO R G E N E R A L F O R F I N A N C I A L ,
 I N F O R M A T I O N T E C H N O L O G Y, A N D D E P A R T M E N T- W I D E P R O G R A M S

 John L. Meche . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-1496

 D E P U T Y A S S I S TA N T I N S P E C TO R G E N E R A L F O R N AT I O N A L
 T R A N S P O RTAT I O N I N F R A S T R U C T U R E

 Theodore P. Alves . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-0687

 D E P U T Y A S S I S TA N T I N S P E C TO R G E N E R A L F O R M A R I T I M E
 A N D H I G H W AY S A F E T Y

 Thomas J. Howard . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-5630

 D E P U T Y A S S I S TA N T I N S P E C TO R G E N E R A L F O R C O M P E T I T I O N,
 ECONOMIC, RAIL, AND SPECIAL PROGRAMS

 Mark R. Dayton . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-9970


64
U.S. Department of Transportation

   Office of Inspector General
    400 Seventh Street, S.W.
     Washington, D.C. 20590
